APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

No. 18-1302
Yury Rinsky,
Plaintiff - Appellee,
v.
Cushman & Wakefield, Inc.,
Defendant - Appellant.

Appeal from the United States District Court
for the District of Massachusetts
[Hon. Allison D. Burroughs, U.S. District Judge]

Filed: March 8, 2019

Before
Barron and Selya, Circuit Judges, and Katzmann,*
Judge.
Of the United States Court of International Trade, sitting
by designation.
*

(1a)

2a

Sawnie A. McEntire, with whom Benjamin M.
McGovern, Holland & Knight LLP, Ralph T. Lepore, III,
Paula D. Taylor, and Parsons McEntire McCleary PLLC
were on brief, for appellant.
Mark D. Szal, with whom Szal Law Group LLC, John
W. Dennehy, and Dennehy Law were on brief, for
appellee.
KATZMANN, Judge. In this diversity action,
Appellee Yury Rinsky (“Rinksy”), a citizen of
Massachusetts, brought suit against his former employer,
the New York-based real estate firm Cushman &
Wakefield, Inc. (“C&W”), claiming that C&W
impermissibly fired him because of his age and disability.
C&W removed Rinsky’s suit from the Massachusetts
Superior Court to the United States District Court for the
District of Massachusetts (“district court”) in Boston,
which applied the New York City Human Rights Law
(“NYCHRL”), N.Y.C. Admin. Code §§ 8-101–107. The
jury then found that C&W discriminated against Rinsky
on the basis of age and awarded him $1,275,000, comprised
of $425,000 in compensatory damages and $850,000 in
punitive damages. C&W appeals from this verdict,
arguing that the NYCHRL was inapplicable, that the
district court judge incorrectly instructed the jury, and
that there was insufficient evidence to support the jury’s
verdict. After navigating through the issues, including a
question requiring us to make an informed prophecy about
how the highest court in New York would define the
burden of proof for punitive damages in a NYCHRL claim,
we affirm.

3a
I.
A. Evidence at Trial.
Rinsky began working as a senior systems analyst
for C&W’s New York City office in 1988. Between 2009
and 2015, Rinsky worked as a software engineer for the
company’s AS/400 computer system. Beginning in 2012,
he worked three to four days a week remotely from his
home in New Jersey and spent the remainder of the work
week in the New York City office. Rinsky also occasionally
worked remotely while visiting his daughter in Boston.
Rinsky received performance reviews of “exceeds
expectations” and “excellent” throughout his 27-year
tenure with C&W.
In December 2014, Rinsky and his wife purchased
a home in Winchester, Massachusetts. Rinsky testified at
trial that he did not initially intend to move there right
away, but rather that he and his wife planned to retire
there in a few years to be closer to their daughter and
grandchild. In March 2015, Rinsky’s broker listed his
home in New Jersey for sale. Rinsky learned that same
month that his boss, Colin Reid, was transferring to the
Miami office. Rinsky testified that he then decided to ask
Reid about the possibility of transferring to the Boston
office, and that when he raised the question, Reid replied
that they would “have plenty of time to talk about it later.”
Rinsky then received an offer on his New Jersey
home. The offer included the following lease-back
provision: “Sellers will have the option to lease the house
back at the lease market value until buying another
property.” Rinsky called Reid to inform him of the offer
and again inquired about the possibility of transferring to
the Boston office. During the phone call, Reid approved of
Rinsky’s transfer to Boston but said he needed to check
with his boss, Andrew Hamilton. Reid also noted that
Rinsky primarily worked remotely anyway. A few days

4a
later, Rinsky asked Reid about Hamilton’s response, but
Reid informed Rinsky that he had not yet talked to
Hamilton about his transfer request. Rinsky testified that
a few days later, however, Reid told him that he had
spoken with Hamilton, that Hamilton said that he knew
that Rinsky “handle[s] most of the work on the AS/400,
and he ha[d] no problem for [Rinsky] to work out of the
Boston office,” and that the Chief Information Officer
would be in touch about arranging a cubicle for Rinsky in
Boston.
Reid disputed Rinsky’s timeline at trial and
testified that the first he had heard of Rinsky’s relocation
was April 30, 2015. He testified that he told Rinsky that
the transfer request would need to go through a process,
requiring approvals from three other company managers,
and warned Rinsky that his own transfer had taken
months.
On May 14, Hamilton sent Reid a meeting request
to “discuss the situation Yury has put us in with his home
purchase in Boston.” On Sunday, May 17, Rinsky emailed
Reid:
As discussed I will be moving to Boston on
5/27/2015 for family reasons and need to
take 4 personal days after Memorial Day
(5/26 – 5/29). I am confident that I can
continue to work to the best of my ability
remotely. I look forward to sitting down
with you and coming up with an
arrangement that benefits all involved.
Thanks.
Reid replied, “Ok, we will talk on Tuesday.”
Hamilton emailed his boss and senior managing
director, Leif Maiorini, on May 27 with six steps to
replace Rinsky, including hiring a new employee,
retaining Rinsky for about nine weeks for knowledge

5a
transfer, and working with the Human Resources
manager on Rinsky’s exit. Later that same week,
Rinsky began working remotely from his Winchester,
Massachusetts home. On June 2, a C&W employee
emailed Rinsky to ask if he would need his desktop in
Boston, to which Rinsky replied, “I will need my
desktop in a couple of weeks when I get a cubicle in
[the] Boston office.” Reid replied, “Pls [sic] wait until
I am back in NY tomorrow. Yury might be getting new
equipment for Boston, since I have an AS400
consultant sitting there next week.” Rinsky continued
to work remotely from his Massachusetts home.
Over the next three weeks, senior management
exchanged several emails regarding Rinsky’s position,
his move to Boston, and the need to terminate him. On
June 15, Maiorini emailed Hamilton and Reid to say,
“we need to move forward with Yuri’s [sic] termination
as quickly as possible. The position that Yuri [sic] fills
is located in NYC. Given that he left without notifying
his manager or HR is unacceptable and we need to
take action as [sic] quickly.” The next day, the Human
Resources manager emailed Hamilton and Reid
sample resignation language to share with Rinsky. On
Monday, June 22, Hamilton and Reid called Rinsky
and asked him to report to New York City for work five
days a week, beginning the next day, or, in the
alternative, to resign from his position. Rinsky
protested, sending emails to senior management in
which he explained that he believed his job transfer to
Boston had been approved. After Rinsky opted not to
resign, C&W terminated him on July 10.
Rinsky was 63 years old when he was terminated,
and C&W replaced him with an approximately 48-year-old
employee. Hamilton and Maiorini were in their forties,
while Reid was 61 years old. C&W also treated the request

6a
for a transfer of another employee differently from the
way it treated Rinsky’s request. In May 2015, another
C&W employee, Jay Leiser,1 moved to Florida. C&W
allowed him to work remotely from Florida part of the
week and in person in the New York City office the rest of
the week. After six months, C&W approved a full-time
transfer to Florida.
B. Background and Procedural History.
On January 15, 2016, Rinsky, then living in
Winchester, Massachusetts, filed a complaint in
Massachusetts Superior Court, asserting claims against
his former employer, C&W, for age discrimination and
disability discrimination, both in violation of Mass. Gen.
Laws ch. 151B2, promissory estoppel/detrimental reliance,
fraudulent representation, and negligent representation.
Mass. Gen. Laws ch. 151B, § 9 allows for recovery of
“actual and punitive damages” and “award[s] the
petitioner reasonable attorney’s fees and costs unless
special circumstances would render such an award
unjust.” “[P]unitive damages may be awarded for conduct
that is outrageous, because of the defendant’s evil motive
or his reckless indifference to the rights of others.” Dartt
v. Browning-Ferris Indus., Inc. (Mass.), 691 N.E.2d 526,
537 (Mass. 1998) (quoting Restatement (Second) of Torts
Neither party cites Leiser’s exact age. In closing argument,
C&W acknowledged that Leiser was younger than Rinsky, and in his
brief before this Court, Rinsky also indicated that Leiser was younger
than he.
2
As required by the Massachusetts exhaustion scheme, see
Goldstein v. Brigham & Women’s Faulkner Hosp., Inc., 80 F. Supp.
3d 317, 323 (D. Mass. 2015), prior to filing suit under Mass. Gen. Laws
ch. 151B in Superior Court, Rinsky first filed an administrative
complaint with the Commonwealth of Massachusetts Commission
Against Discrimination (“MCAD”) and waited the requisite 90 days
before suing upon his claim.
1

7a
§ 908(2) (1979)). Such damages “are appropriate ‘where a
defendant’s conduct warrants condemnation and
deterrence.’” Id. at 536 (quoting Bain v. Springfield, 678
N.E.2d 155, 162 (Mass, 1997)). In age discrimination
cases, Mass. Gen. Laws ch. 151B, § 9 provides that the
court must double and may treble actual damages “if the
court finds that the act or practice complained of was
committed with knowledge or reason to know” that there
was a violation.
Noting that Rinsky was a citizen of Massachusetts,
C&W was a corporation organized under the law of the
state of New York, with a principal place of business in
New York, and the amount in controversy exceeded
$75,000, C&W removed the case on diversity grounds to
the federal district court. As required by 28 U.S.C.
§ 1446(a), the complaint served on C&W in the state court
action was attached to the Notice of Removal. The
complaint was not repleaded in federal court. The case
proceeded to discovery under Massachusetts law. C&W
moved for and was denied summary judgment under
Massachusetts law. The district court then ordered
briefing on whether Massachusetts or New York law
should apply.
Citing the Massachusetts “functional choice-of-law
approach that responds to the interests of the parties, the
States involved, and the interstate system as a whole,”
C&W argued that New York law should apply because
New York “has the most significant relationship” to the
case. See Bushkin Assocs. v. Raytheon Co., 473 N.E.2d
662, 668 (Mass. 1985); City of Haverhill v. George Brox,
Inc., 716 N.E.2d 138, 144 (Mass. App. Ct. 1999). According
to C&W, Massachusetts was only connected to the case
because the plaintiff moved there on his own accord.
Moreover, the termination took place in New York and
was the key event that engendered this suit. C&W

8a
represented that the New York counterpart to the
Massachusetts discrimination statute (Mass. Gen. Laws
ch. 151B) pleaded by Rinsky in the underlying complaint
was the New York State Human Rights Law
(“NYSHRL”), N.Y. Exec. Law §§ 290–296. In relevant
part, that statute prohibits discrimination in employment
on the basis of “age . . . [or] disability.” Id. at § 296(a). To
prevail in an action, a plaintiff must show that “age was the
‘but-for’ cause of the challenged adverse employment
action.” See Gorzynski v. JetBlue Airways Corp., 596 F.3d
93, 106 (2d Cir. 2010) (stating that claims under the
NYSHRL are “identical” to claims brought under the
more stringent stands of the federal Age Discrimination
in Employment Act, id. at 105 n.6); Douglas v. Banta
Homes Corp., No. 11 Civ. 7217, 2012 WL 4378109, at *3
(S.D.N.Y. Sept. 21, 2012) (stating that, for claims under
the NYSHRL, a plaintiff must meet a heightened
standard of proving that “age was the ‘but-for’ cause of the
challenged adverse action [and] [i]t is insufficient for the
plaintiff to prove simply that age was ‘one motivating
factor’ in the decision” (quoting Colon v. Trump Int’l Hotel
& Tower, No. 10 Civ. 4794, 2011 WL 6092299, at *5
(S.D.N.Y. Dec. 10, 2011))). C&W noted that, unlike the
Massachusetts statute, the NYSHRL does not provide for
punitive damages or for an award of fees.
Rinsky responded that the statute most analogous
to the Massachusetts statute was the NYCHRL, N.Y.C.
Admin. Code § 8-101 et seq., which expressly provides for
recovery of uncapped compensatory damages, including
punitive damages and attorneys’ fees for claims of age and
disability discrimination. Specifically, the NYCHRL
provides that persons aggrieved by unlawful
discriminatory practices “shall have a cause of action in
any court of competent jurisdiction for damages, including
punitive damages.” N.Y.C. Admin. Code § 8-502(a). To

9a
succeed, a plaintiff must meet a lesser standard than that
required by the NYSHRL; age need only be “one
motivating factor” or a “substantial factor” for the adverse
employment action.
See Russo v. N.Y. Presbyterian
Hosp., 972 F. Supp. 2d 429, 455–56 (E.D.N.Y. 2013) (citing
Brightman v. Prison Health Serv., Inc., 970 N.Y.S.2d 789,
792 (App. Div. 2013)). The NYCHRL further provides
that “the court, in its discretion, may award the prevailing
party reasonable attorney’s fees, expert fees and other
costs.” N.Y.C. Admin. Code § 8-502(g). Rinsky noted that
“the viability of the punitive damages and attorney’s fees
provisions of the City Human Rights Law [is] not affected
in any way by the State Human Rights Law.” Grullon v.
S. Bronx Overall Econ. Dev. Corp., 712 N.Y.S.2d 911, 917
(N.Y. Civ. Ct. 2000).
The district court ruled that:
[a]fter reviewing the parties’ supplemental
briefing [ECF Nos. 45, 46], the Court
concludes that New York law applies to this
case, and that New York law does not permit
Plaintiff to bring common-law claims for
fraudulent or negligent misrepresentation
or promissory estoppel. The Court further
concludes that Plaintiff may bring his
discrimination claims pursuant to the New
York City Human Rights Law, Admin. Code
of City of New York § 8-101 et seq., which
provides for the recovery of punitive
damages and attorneys’ fees. Therefore, the
Court will allow Plaintiff to introduce
evidence of damages in accordance with this
statute. The parties are granted leave to

10a
supplement
their
proposed
jury
instructions. [3]
The district court also determined that the NYCHRL,
which provides for punitive damages, was analogous to the
initially pleaded claims under Massachusetts law. In
short, with the dismissal of Rinsky’s common law claims,
what remained for the jury was consideration of the age
and disability discrimination claims pursuant to the
NYCHRL.
The morning of the commencement of the trial and
delivery of opening statements by counsel, just as the
evidence was about to be introduced, C&W’s counsel
stated to the court:
I don’t think this particular point has been
made clear. C&W objects to the New York
City Human Rights Law being applied. I
know it’s in Your Honor’s order from last
Friday. Our position on this is what was
pled was state law claims. [Rinsky] availed
himself of the MCAD. He availed himself of
M.G.L. 151B. These are state law claims.
There is a New York counterpart to M.G.L.
151B, and that is the New York State
Human Rights Law. And our position is
although Your Honor has already ruled on
this, it would be the state law claims that
would be the analog to the Massachusetts
claims that have been pled.

“A federal court sitting in diversity applies state substantive law.
To determine the applicable substantive law, the federal court applies
the choice-of-law principles of the forum state, here Massachusetts.”
Levin v. Dalva Bros., Inc., 459 F.3d 68, 73 (1st Cir. 2006) (citations
omitted).
3

11a
The court replied: “Okay. That wasn’t clear. So thank
you.”
Following a five-day trial, the jury returned its
verdict. Although Rinsky did not prevail on his claim of
disability discrimination, the jury found in his favor on his
age discrimination claim, awarding $425,000 in
compensatory damages and $850,000 in punitive damages.
After the verdict was rendered, C&W filed, pursuant to
Federal Rule of Civil Procedure 50(b), a renewed motion
for judgment as a matter of law (“JMOL”), in which it
argues that the evidence was legally insufficient to find
that age or disability discrimination was a motivating
factor in Rinsky’s termination. C&W also moved for a new
trial, pursuant to Federal Rule of Civil Procedure 59(a), on
the age discrimination claim. The district court denied
C&W’s post-trial motions. C&W timely filed an appeal
with this court.
C. Jurisdiction.
The district court had subject matter jurisdiction
under 28 U.S.C. § 1332(a) because the controversy is
between citizens of different states and the amount in
controversy exceeds $75,000. We have jurisdiction over
the appeal of the district court’s final order under 28
U.S.C. § 1291.
II.
C&W argues that the district court impermissibly
applied the NYCHRL because the impact of Rinsky’s
termination was felt in Massachusetts, not New York City,
as would be required for the protections of the NYCHRL
to apply; that the district court improperly instructed the
jury; and that there was insufficient evidence to support
the jury’s verdict. We discuss each issue in turn.

12a
A. Applicability of the NYCHRL.
On appeal, C&W launches two separate challenges
to the applicability of the NYCHRL.
Neither is
meritorious.
1. Pleading.
C&W argues on appeal that Rinsky waived his
NYCHRL claim “by failing to plead a city-based cause of
action (or amend his pleadings in order to do so) at any
point during the proceedings below.” We conclude that
this claim has not been preserved for appellate review and
that in any event it fails on the merits.
At the outset, we note that the NYCHRL claim is
in the case only because after C&W removed the action
from Massachusetts state court to federal court, C&W
requested that the district court apply New York rather
than Massachusetts law. Rinsky’s complaint under
Massachusetts law raised the issue of age discrimination
and punitive damages, the pleadings and proceedings
made C&W aware of the issues in dispute, and the parties
discussed the NYCHRL prior to trial. As we have
detailed, supra pp. 10-11, the district court acceded to
C&W’s request to apply New York law and then concluded
that -- as a choice of law matter -- the analogous New York
law claim was one based on NYCHRL, which like
Massachusetts law, offered the potential for punitive
damages. We have also noted that after trial was under
way, C&W merely objected to the district court’s decision
to apply the city-based cause of action, without providing
any explanation or case law for why that decision was
wrong.
We have “repeatedly warned litigants that
‘arguments not made initially to the district court cannot
be raised on appeal.’” DiMarco-Zappa v. Cabanillas, 238
F.3d 25, 34 (1st Cir. 2001) (quoting St. Paul Fire & Marine
Ins. Co. v. Warwick Dyeing Corp., 26 F.3d 1195, 1205 (1st
Cir. 1994)). “Simply noting an argument in passing

13a
without explanation is insufficient to avoid waiver.” Id.
(citing McCoy v. Mass. Inst. of Tech., 950 F.2d 13, 22 (1st
Cir. 1991)). “A party must ‘provide . . . analysis. . .’ or
‘present . . . legal authority directly supporting their
thesis.’” Id. (quoting McCoy, 950 F.2d at 22). Thus,
because C&W failed in the district court to “meet [its]
‘duty to spell out . . . arguments squarely and distinctly[,]’”
any challenge to the decision to apply the NYCHRL as a
result of its choice of law analysis is waived. Id. (quoting
McCoy, 950 F.3d at 22 (finding that two sentences plus one
case citation were insufficient to avoid waiver)). For the
same reasons, C&W’s post-trial contention, made in a
footnote without argument or authority, that Rinsky
forfeited his ability to pursue a NYCHRL claim because
his original complaint did not include a cause of action
under an unidentified Massachusetts city ordinance, must
also be deemed waived.4 See DiMarco-Zappa, 238 F.3d at
34. As the district court observed: C&W “has never raised
this point before, and does not explain what principle
would allow it to do so for the first time in a post-trial
motion. Simply appending an otherwise-waived argument
to a jurisdiction argument is not enough.” We agree.
C&W’s pleading claim also fails on the merits. The
Federal Rules of Civil Procedure govern an action once it
is removed from the state court. Fed. R. Civ. P. 81(c)(1).
See generally 14 James Wm. Moore et al., Moore’s
Federal Practice – Civil § 81.04 ¶ 3 (2018). “A fundamental
purpose of pleadings under the Federal Rules of Civil
Procedure is to afford the opposing party fair notice of the
claims asserted against him and the grounds on which
those claims rest.” Rodriguez v. Doral Mortg. Corp., 57
F.3d 1168, 1171 (1st Cir. 1995). Under the circumstances
The district court noted that “no such statute exists in
Winchester, where [Rinsky] resides[].”
4

14a
of this action removed by C&W, with fair notice of the
claim and issues provided to C&W as mandated by
Federal Rule of Civil Procedure 8(a)(2),5 Rinsky was not
required to newly plead the NYCHRL claim.
We also note that Federal Rule of Civil Procedure
81(c)(2) provides that “[a]fter removal, repleading is
unnecessary unless the court orders it.” See Moore,
§ 81.04 ¶ 4(a); Freeman v. Bee Machine Co., 319 U.S. 448,
452 (1943) (“District courts . . . [have] the power to permit
a recasting of pleadings or amendments to complaints in
accordance with the federal rules.”). “[F]ederal courts will
accept, as operative, papers served in state court which
satisfy the notice-giving function of pleadings under the
Federal Rules of Civil Procedure.” Frank B. Hall & Co.,
Inc. v. Rushmore Ins. Co., 92 F.R.D. 743, 745 (S.D.N.Y.
1981); see also Istituto Per Lo Sviluppo Economico
Dell’Italia Meridionale v. Sperti Prods., Inc., 47 F.R.D.
310, 313 (S.D.N.Y. 1969) (rejecting defendant’s objection
to lack of a formal complaint since plaintiff “supplied the
defendant with more details than it could possibly hope to
obtain from a formal complaint” and defendant was “fully
able to raise any objections and defenses” to plaintiff’s
claims). That said, “[i]t would not serve the interests of
justice . . . to redeem a totally unpleaded, unlitigated claim
in circumstances that threaten significant prejudice to a
defendant.” Rodriguez, 57 F.3d at 1171.
Here, contrary to C&W’s assertions, the NYCHRL
claim was not an unlitigated claim “tease[d] [] out of
adduced facts.” Id. On these facts, C&W has shown no
prejudice arising out of the failure to replead, nor can it
assert successfully that it was denied notice of what claim
Federal Rule of Civil Procedure 8(a)(2) requires that a complaint
“must contain a short and plain statement of the claim showing that
the pleader is entitled to relief.”
5

15a
was being litigated. Although it would have been advisable
as a matter of “clean” litigation practice for the district
court to have ordered repleading, repleading was not
required here.6
2. Justiciability.
C&W alleges that the district court improperly
concluded that the NYCHRL applied to Rinsky’s claims
because he lived and worked in Massachusetts at the time
C&W terminated him, and thus the impact of the adverse
employment decision was not felt in New York City.
Therefore, according to C&W, the district court lacked
subject matter jurisdiction. We are unpersuaded by
C&W’s contentions.
a. Basic Concepts.
At the outset, we note that C&W confuses the very
different concepts of subject matter jurisdiction and
justiciability. “[T]he question whether a district court has
subject matter jurisdiction over a dispute, as a general
matter, is substantively different from the question
whether a district court has, or has acquired, the power to
adjudicate a particular dispute.” AEP Energy Servs. Gas
Holding Co. v. Bank of America, 626 F.3d 699, 720 (2d Cir.
2010). “It is well-settled that subject matter jurisdiction
‘concerns a court’s competence to adjudicate a particular
category of cases.’” Id. (quoting Wachovia Bank v.
Schmidt, 546 U.S. 303, 316 (2006)); see also Verizon Md.,
Inc. v. Pub. Serv. Comm’n of Md., 535 U.S. 635, 643 (2002)
(noting that subject matter jurisdiction refers to “the
The court, in its “Memorandum and Order Denying Defendant’s
Post-Trial Motions,” stated that had C&W raised the issue in a timely
fashion, “the Court would have entertained a motion to amend the
complaint . . . Allowing Plaintiff to amend the complaint would have
been appropriate once the Court determined, at Defendant’s behest,
that New York law applied, and such an amendment would not have
prejudiced Defendant.”
6

16a
courts’ statutory or constitutional power to adjudicate the
case” (quoting Steel Co. v. Citizens for Better Env’t, 523
U.S. 83, 89 (1998) (emphasis omitted)). Subject matter
jurisdiction “poses a ‘whether[]’ . . . question: Has the
Legislature empowered the court to hear cases of a certain
genre?” Schmidt, 546 U.S. at 316. Cf. Arbaugh v. Y & H
Corp., 546 U.S. 500, 511 (2006) (condemning the use of
“‘drive-by jurisdictional rulings’” that conflate a federal
court’s subject matter jurisdiction with “the question
whether the federal court had authority to adjudicate the
claim in suit” (quoting Steel Co., 523 U.S. at 91)).
Here, there can be no doubt the federal district
court has original subject matter jurisdiction under 28
U.S.C. § 1332(a)(1), commonly known as the “diversity
jurisdiction” provision. The parties are citizens of
different states, and the amount in controversy exceeds
$75,000, which satisfies 28 U.S.C. § 1332(a)(1). Cf. Grinnell
Corp. v. Hackett, 475 F.2d 449, 453 (1st Cir. 1973)
(“Justiciability is . . . distinguishable from subject matter
jurisdiction, which was here properly not disputed.”).
We have recognized a formulation of justiciability
that relates to whether there is “a lack of judicially
discoverable and manageable standards for resolving [the
case].” Id. (quoting Baker v. Carr, 369 U.S. 186, 217
(1962)). Thus, whether the elements of the legal claims in
dispute have been satisfied -- that is, whether the claims
are cognizable and thus justiciable -- is another matter to
which we now turn.
Throughout trial, C&W contended that it
terminated Rinsky because he moved to Massachusetts
without first receiving proper approval to transfer his
employment to the C&W of Massachusetts (“C&W of
MA”) office in Boston. C&W argues that the NYCHRL
did not apply to Rinsky’s claims because he lived and
worked in Massachusetts at the time C&W terminated

17a
him, and thus the impact of the decision was felt only
outside New York City and not within the reach of the
statute. We disagree.
The highest court in New York, the Court of
Appeals, has held that when determining whether
plaintiffs can bring a claim pursuant to the NYCHRL, the
question is whether the impact of an alleged
discriminatory decision was felt within New York City.
Hoffman v. Parade Publ’n, 933 N.E.2d 744, 746 (N.Y.
2010); see also Vangas v. Montefiore Med. Ctr., 823 F.3d
174, 182–83 (2d Cir. 2016); Robles v. Cox & Co., 841 F.
Supp. 2d 615, 624 (E.D.N.Y. 2012). “[T]he impact
requirement does not exclude all nonresidents from its
protection; rather, it expands those protections to
nonresidents who work in the city, while concomitantly
narrowing the class of nonresident plaintiffs who may
invoke its protection.” Hoffman, 933 N.E.2d at 747. In
other words, the impact requirement “confines the
protections of the NYCHRL to those who are meant to be
protected -- those who work in the city.” Id. In contrast,
the fact that the alleged discriminatory action occurs in
New York City is not enough to support a claim under the
NYCHRL; “although the locus of the decision to
terminate may be a factor to consider, the success or
failure of an NYCHRL claim should not be solely
dependent on something as arbitrary as where the
termination decision was made.” Id.
b. Impact Under the NYCHRL.
In light of these tenets, the present claim appears
fully justiciable. It is clear that Rinsky’s residence in
Massachusetts does not either preclude him from bringing
a claim under the NYCHRL or support the conclusion that
the impact of his termination was not felt in New York
City. See id. Nor does the fact that he teleworked from
Massachusetts. C&W asserts, unpersuasively, that “the

18a
only rational interpretation of the jury’s verdict is that it
rejected C&W’s theory of job abandonment and instead
credited Rinsky’s argument that C&W granted his
request (either explicitly or implicitly) to be transferred to
C&W of MA.” Rather, the evidence showed that Rinsky
performed work at C&W’s New York City office for
twenty-seven years. Believing he had permission to work
from Massachusetts, Rinsky began to perform his work
for the New York City office remotely from his
Massachusetts home.
Several weeks later, C&W
terminated him, purportedly for refusing to conduct his
work while physically present in the New York City office.
We agree with the post-trial observation of the presiding
judge that a “plausible reading of the verdict and the
evidence is that [C&W] allowed [Rinsky] to believe that he
would be able to transfer to Massachusetts, but never
officially authorized or intended to authorize the transfer,
thus creating a pretext to fire him after he moved.”
Therefore, Rinsky was “continuously employed in New
York City, despite the fact that he worked remotely from
Massachusetts in the days preceding his termination.”
The NYCHRL must be “construed liberally for the
accomplishment of the uniquely broad and remedial
purposes thereof.” Mihalik v. Credit Agricole Cheuvreux
N. Am., Inc., 715 F.3d 102, 109 (2nd Cir. 2013) (quoting
Restoration Act § 7 (amending N.Y.C. Admin. Code § 8–
130)). It would create a significant loophole in the
statutory protection that the New York Court of Appeals
deemed was provided to non-resident employees,
Hoffman, 933 N.E.2d at 746, if by the chicanery of
misleading or lulling employees into working remotely
from outside New York City before terminating them, an
employer could immunize itself from liability. Surely, in
enacting the NYCHRL, the New York City Council did
not countenance that such stratagems in service of

19a
prohibited discrimination would be beyond the reach of
the statute. In short, the district court did not err in
determining that the NYCHRL applies.7
We find instructive the analysis presented in
Wexelberg v. Project Brokers LLC, No. 13 Civ. 7904, 2014
WL 2624761 (S.D.N.Y. 2014). In that case, the plaintiff had
worked in the defendant’s New York City office for six
weeks, followed by five weeks of working remotely for the
New York City office from his New Jersey home. Id. at
*10. The court determined that the plaintiff could bring
claims under the NYCHRL and noted that “this
arrangement may present quite a different scenario from
the caselaw that addresses a claim by an employee
stationed at an out-of-state office.” Id. at *11; contra
Hoffman, 933 N.E.2d at 745-47 (denying NYCHRL
protection to a resident of Georgia working for
defendant’s Atlanta office when his contacts with New
York City were limited to communications and occasional
personal visits to the New York City office). The
Wexelberg court was particularly concerned about the
“form of victimization” that would result from “the simple
stratagem of directing a targeted employee to do his work
at home rather than at the New York [City] office where
he normally works, and then terminating him a few days
or weeks later” in order to circumvent the NYCHRL.
Wexelberg, 2014 WL 2624761, at *11. C&W argues that
Wexelberg is distinguishable because C&W did not direct
Rinsky to move to Boston and instead Rinsky initiated his
own relocation. Be that as it may, the same concerns
present in Wexelberg are still at play here.

In view of our holding, we need not reach Rinsky’s alternative
argument that C&W should be judicially estopped from contending
that the NYCHRL does not apply.
7

20a
B. Jury Instructions.
C&W contends that the district court committed
reversible error in its causation and punitive damages
instructions. We do not discern merit in these claims.
1. Causation.
C&W argues that the district court failed to
instruct the jury properly regarding the substantive
differences between the NYCHRL and the NYSHRL and
that this failure prejudiced C&W. Specifically, C&W
contends that the instruction incorrectly captured the
applicable law because it included the lower standard of
causation pursuant to the NYCHRL -- that age must be a
substantial or motivating factor in a plaintiff’s termination
-- which C&W contends is inapplicable to this action.
Instead, according to C&W, the district court should have
exclusively denoted the stricter “but-for” standard under
the NYSHRL. Moreover, C&W contends that, regardless
of whether it was proper for the district court to address
the NYCHRL and NYSHRL claims in tandem, the
phraseology of the instruction still prejudiced C&W by
collapsing the distinction between the NYCHRL and
NYSHRL.
The relevant portion of the jury instruction is as
follows:
It is unlawful for an employer or its agents
to terminate an employee based on his age
or because of a disability. In this case, in
order for the plaintiff to recover, he must
prove by a preponderance of the evidence
that his age, a disability, or both was a
determining or substantial factor in
Defendant Cushman & Wakefield’s decision
to terminate him. . . .
Age and/or disability are determining
factors if Plaintiff would not have been

21a
terminated but for his age and/or
disability. . . .
Evidence of pretext standing alone may but
not need support an inference of unlawful
bias.
Therefore, if the plaintiff has
persuaded you that the defendant’s
explanation for terminating the plaintiff is
false, you may but are not required to infer
that defendant is covering up a
discriminatory intent, motive, or state of
mind, although plaintiff must still show that
age or disability was a substantial factor.
Additionally, C&W complains of the question posed
in the special verdict form asking whether Rinsky
“prove[d] by a preponderance of the evidence that his age
was a substantial factor in [C&W’s] decision to terminate
him?”
Claims of preserved instructional error are
reviewed under a split standard. Franchina v. City of
Providence, 881 F.3d 32, 55 (1st Cir. 2018). “Questions as
to whether jury instructions capture the essence of the
applicable law are reviewed de novo, while questions as to
whether the court’s choice of phraseology in crafting its
jury instructions is unfairly prejudicial are reviewed for
abuse of discretion.” Id. (citing DeCaro v. Hasbro, Inc.,
580 F.3d 55, 61 (1st Cir. 2009)). The abuse of discretion
analysis “focuses on whether the instruction ‘adequately
illuminate[d] the law applicable to the controverted issues
in the case without unduly complicating matters or
misleading the jury.’” Shervin v. Partners Healthcare
Sys., Inc., 804 F.3d 23, 47 (1st Cir. 2015) (quoting Testa v.
Wal–Mart Stores, Inc., 144 F.3d 173, 175 (1st Cir. 1998)).
As we have discussed, the NYCHRL -- not the
NYSHRL -- is applicable in this action. The jury
instruction language quoted above includes the essence of

22a
applicable law -- that is, that a plaintiff must “establish
that there was a causal connection between [the] protected
activity and the employer’s subsequent action, and must
show that a defendant’s legitimate reason for [his]
termination was pretextual or ‘motivated at least in part
by an impermissible motive.’” Russo, 972 F. Supp. 2d at
456 (citing Brightman, 970 N.Y.S.2d at 792). Courts
interpreting claims under the NYCHRL have rejected the
imposition of the heightened “but-for” causation standard
governing NYSHRL actions. See, e.g., Calhoun v. Cnty.
of Herkimer, 980 N.Y.S.2d 664, 667–68 (2014) (stating that
plaintiff’s burden of establishing causation is showing that
“the defendant was motivated at least in part by an
impermissible motive” (quoting Brightman, 970 N.Y.S.2d
at 789)); Taylor v. Seamen’s Soc. For Children, No. 12 Civ.
3713, 2013 WL 6633166, at *23 (S.D.N.Y. Dec. 17, 2013)
(finding that the “but-for” causation standard did not
apply to claim under the NYCHRL); Douglas, 2012 WL
4378109, at *3 (“[T]he Court’s analysis of the claims
brought pursuant to the . . . NYSHRL diverges from
its analysis of the claim brought pursuant to the
NYCHRL . . . [C]ourts . . . have found that NYCHRL
claims remain subject to the standard that requires age to
be only a ‘motivating factor’ for the adverse employment
action, rather than the ‘but-for’ cause.”) (quoting Colon,
2011 WL 6092299, at *5) (internal quotation marks
omitted). This is because NYCHRL claims are viewed
under a more liberal standard than New York state and
federal claims. See Douglas, 2012 WL 4378109, at *3;
Holleman v. Art Crating Inc., No. 12 Civ. 2719, 2014 WL
4907732 at *22 (E.D.N.Y. Sept. 30, 2014) (citing Mihalik,
715 F.3d at 109–10); see also Sass v. MTA Bus Co., 6 F.
Supp. 3d 238, 243 (E.D.N.Y. 2014) (finding no error in
instructing jury on the NYCHRL claim that plaintiff had
to prove that “one or more of his protected activities
played an important role in defendant’s decision to

23a
terminate plaintiff,” and that “plaintiff’s participation in
protected activities were more likely than not a motivating
factor in defendant’s termination of plaintiff”). C&W does
not dispute that a “motivating factor” instruction was
correct under the NYCHRL. We conclude that the jury
instructions did not fail to “capture the essence of the
applicable law.” Franchina, 881 F.3d at 55.
If anything, the district court’s instructions
provided a higher burden of proof than was necessary in
stating that “[a]ge and or disability are determining
factors if [Rinsky] would not have been terminated but for
his age and/or disability.” Such error was not prejudicial.
Because the more lenient “substantial factor” standard is
appropriate under the NYCHRL, the inclusion of the
stricter “but-for” standard language as well did not
prejudice C&W.
Where Rinsky’s NYCHRL claim
prevailed, even with an instruction that included the
language of the stricter standard, any error in the
instruction was harmless to C&W. See 28 U.S.C. § 2111.
“Jury instructions are intended to furnish a set of
directions composing, in the aggregate, the proper legal
standards to be applied by lay jurors in determining the
issues that they must resolve in a particular case.”
Teixeira v. Town of Coventry, 882 F.3d 13, 16 (1st Cir.
2018) (quoting United States v. DeStefano, 59 F.3d 1, 2
(1st Cir. 1995)). Here, the instructions, in aggregate,
describe the appropriate substantial factor standard.
Thus, “[g]iven the satisfactory nature of the district
court’s jury instructions as a whole, we discern no merit in
the appellant’s claims of error.” Id. at 15.
Finally, we address C&W’s contention that the
court should have delivered C&W’s requested jury
instruction:
Plaintiff must prove, by a preponderance of
the evidence, that his age . . . was the “but-

24a
for” cause of defendant’s decision to
terminate his employment. The issue in an
action for age . . . discrimination is not
whether defendant acted with good cause,
but whether its business decision would
have been made but for a discriminatory
motive.
“When . . . a party assigns error to the failure to
give a requested instruction, the threshold inquiry is
whether the requested instruction was correct as a matter
of law.” Shervin, 804 F.3d at 47 (citing Elliott v. S.D.
Warren Co., 134 F.3d 1, 6 (1st Cir. 1998)). “If that
threshold is met, the challenger must make two
subsequent showings: first that the proposed instruction
is ‘not substantially incorporated into the charge as
rendered’ and second that it is ‘integral to an important
point in the case.’” Franchina, 881 F.3d at 55–56 (quoting
White v. N.H. Dept. of Corr., 221 F.3d 254, 263 (1st Cir.
2000)). Here, as discussed above, the applicable standard
for the NYCHRL claims is whether age was a substantial
or motivating factor, not whether Rinsky’s termination
would have occurred but for a discriminatory motive.8
C&W’s proposed instruction thus fails the threshold test,
and we discern no error in the district court’s decision not
to use C&W’s suggested instruction.
2. Punitive Damages.
C&W contends that the district court’s punitive
damages instructions to the jury constituted error for two
reasons. First, according to C&W, the NYCHRL does not
apply, and thus the jury should not have considered
There is thus no merit to C&W’s complaint that the question
posed in the special verdict form -- asking whether Rinsky “prove[d]
by a preponderance of the evidence that his age was a substantial
factor in [C&W’s] decision to terminate him?” - - was in error.
8

25a
punitive damages that are explicitly authorized under that
statute in appropriate cases. However, as we have
discussed, the NYCHRL does apply to this action, and so
the district court properly permitted the jury to consider
whether to award punitive damages.
Second, C&W argues that, even assuming
arguendo that consideration of punitive damages under
the NYCHRL was proper, the district court erred in not
instructing the jury that Rinsky had to prove his
entitlement to punitive damages by “clear and convincing
evidence.” The district court instructed the jury on
punitive damages as follows:
Although uncertainty in the amount of
damages does not bar recovery and
mathematical precision is not required, you
must not speculate, conjecture, or guess in
awarding damages. A damages award must
be based on just and reasonable inferences
from the evidence.
. . .
In addition to awarding damages to
compensate the plaintiff, you may but are
not required to award plaintiff punitive
damages if you find the acts of the defendant
were wanton and reckless or malicious. The
purpose of punitive damages is not to
compensate the plaintiff but to punish the
defendant and thereby discourage the
defendant and others from acting in a
similar way in the future. An act is malicious
when it is done deliberately with knowledge
of the plaintiff’s rights and with intent to
interfere fear [sic] with those rights. An act
is wanton and reckless when it
demonstrates conscious indifference and

26a
utter disregard of its effect upon the health,
safety, and rights of others. If you find that
the defendant’s acts were not wanton or
reckless or malicious, you may not award
punitive damages. On the other hand, if you
find the defendant’s acts were wanton or
reckless or malicious, you may award
punitive damages.
After the trial concluded and briefing on the posttrial motions was completed, “consistent with the New
York City Council’s directive to construe the New York
City Human Rights Law liberally,” Chauca v. Abraham,
89 N.E.3d 475, 477 (N.Y. 2017), the New York Court of
Appeals rejected the heightened level of culpability set
forth under Title VII of the Civil Rights Act, that had been
imposed by Second Circuit precedent. Id.9 Rather, it ruled
that the appropriate, common-law-derived standard, as
articulated in Home Ins. Co. v. Am. Home Prod. Corp., 550
N.E.2d 930, 934–35 (N.Y. 1990), was “whether the
wrongdoer has engaged in discrimination with willful or
wanton negligence, or recklessness, or a ‘conscious
disregard of the rights of others or conduct so reckless so
as to amount to such disregard.’” Chauca, 89 N.E.3d at 481
(quoting Home Ins. Co., 550 N.E.2d at 932). Thus, as it
turned out, the jury instruction challenged in the instant
appeal largely tracked the language set forth by the New
In Farias v. Instructional Sys., Inc., the Second Circuit ruled
the federal Title VII standard applies to claims for punitive damages
under the NYCHRL. 259 F.3d 91, 101 (2d Cir. 2001). Therefore,
according to the Farias court, “the standard in the Second Circuit for
liability for punitive damages under the NYCHRL required a showing
that the defendant had engaged in intentional discrimination and had
done so with malice or with reckless indifference to the protected
rights of the aggrieved individual.” Chauca v. Abraham, 841 F.3d 86,
91 (2d Cir. 2016) (summarizing the holding in Farias).
9

27a
York Court of Appeals, and on appeal C&W does not
contend that the standard to be used for determining
liability for punitive damages as charged by the judge here
was in error. Rather, C&W argues that the punitive
damages instruction was in error because it did not reflect
the plaintiff’s burden of offering “clear and convincing
evidence” in order to obtain punitive damages, which,
according to C&W, was required under New York law.
We are unpersuaded by this argument. First, to
provide context, we note that the appropriate burden of
proof for punitive damages generally is a matter of debate
within New York’s courts. See N.Y. Prac., Com. Litig. In
New York State Courts § 49:7 (4th ed. 2018). Indeed, the
New York Pattern Jury Instructions “does not include a
statement of the standard of proof that must be satisfied
for an award of punitive damages because the Appellate
Divisions are split on the issue” of whether “clear and
convincing evidence” or “preponderance of the evidence”
is the appropriate standard. N.Y. Pattern Jury Inst. –Civil
2:278 (Comment, Dec. 2018 Update).10 New York’s highest
court has not addressed the split. Writing in 1997, then
Judge Sotomayor observed that “[t]he federal and state
court cases on the question are mired in a morass of
ambiguity.” Greenbaum v. Svenska Handelsbanken, N.Y.,
979 F. Supp. 973, 981–82 (S.D.N.Y. 1997). Surveying the
landscape, including New York Court of Appeals and
Second Circuit jurisprudence, the court in Greenbaum
determined that the appropriate standard is

For entitlement to punitive damages, the Second Department
requires that the “clear and convincing evidence” standard be
charged, the First Department requires “clear, unequivocal and
convincing evidence”, and the Fourth Department holds that proof by
“a preponderance of the evidence” is sufficient. See N.Y. Pattern Jury
Inst. –Civil 2:278 (Comment, Dec. 2018 Update) (citing cases).
10

28a
“preponderance of the evidence.” Id. at 982–83.11 The
relevant terrain has not changed since that decision. Were
the issue before us the question of the appropriate burden
of proof for punitive damages generally, we might
seriously consider certifying the question to New York’s
highest court. Cf. Chauca, 841 F.3d at 93 (certification by
Second Circuit to the New York Court of Appeals on issue
of standard of liability for awarding punitive damages
under the NYCHRL); see also In re Engage, Inc., 544
F.3d 50, 53–58 (1st Cir. 2008) (certification by First Circuit
of question to the Massachusetts Supreme Judicial Court).
Though the parties have not requested certification, we
would not be precluded from so doing on our own. See
Chauca, 841 F.3d at 93.
The issue before us, however, is a narrower one: is
clear and convincing evidence required to award punitive
damages under the NYCHRL, which does not statutorily
specify the quantum of proof? As a Boston-based federal
court, we are in essence asked to make an informed
prophecy as to the standard that would be articulated by
the New York Court of Appeals if confronted with that
question. “[A] federal court sitting in diversity should not
simply throw up its hands, but, rather, should endeavor to
predict how that court would likely decide the question.”
Butler v. Balolia, 736 F.3d 609, 613 (1st Cir. 2013); see also
Travelers Ins. Co. v. 633 Third Assoc., 14 F.3d 114, 119 (2d
Cir. 1994). In making such a determination, “the federal
The Greenbaum court noted that in an 1874 negligence case, the
New York Court of Appeals held that liability for punitive damages
needed to be “clearly established.” Cleghorn v. N.Y. Cent. &
H.R.R.R., 56 N.Y. 44, 47–48 (1874). However, “a significantly more
recent Court of Appeals decision recommends the precise opposite
result: that the preponderance standard applies to punitive damages
determinations.” Greenbaum, 979 F. Supp. at 978 (citing Corrigan v.
Bobbs-Merrill Co., 126 N.E. 260, 263 (N.Y. 1920)).
11

29a
court should consult the types of sources that the state’s
highest court would be apt to consult, including analogous
opinions of that court, decisions of lower courts in the
state, precedents and trends in other jurisdictions,
learned treatises, and considerations of sound public
policy.” Butler, 736 F.3d at 613. In our view, the road to
the decision is well-lit, with sign posts that guide us to our
determination that under the NYCHRL, clear and
convincing evidence is not the quantum of proof for
punitive damages. Even if we were to assume arguendo
that the New York Court of Appeals would apply the
“clear and convincing” evidence standard to punitive
damages generally, for the reasons discussed below, our
conclusion regarding the NYCHRL would not change.
The district court thus was correct in declining to so
charge.
We turn for resolution of the burden of proof
question before us to the New York Court of Appeals
decision that is now the touchstone of our understanding
for punitive damages under the NYCHRL -- Chauca, 89
N.E.3d 475. There, as we have noted, the Court of Appeals
rejected as “contrary to the intent of the [New York City]
Council” the application of the stringent standards
imposed by Title VII for punitive damages. The court
explained:
[I]n 2005, subsequent to Farias, the City
Council passed the Restoration Act,
amending the Administrative Code of the
City of New York to ensure that “[t]he
provisions of [the NYCHRL] shall be
construed liberally . . . regardless of whether
federal or New York state civil and human
rights laws . . . have been so construed”
(Administrative Code § 8-130 [a]).
Expressing concern that the NYCHRL was

30a
being too strictly construed, the amendment
established that similarly worded state or
federal statutes may be used as interpretive
aids only to the extent that the counterpart
provisions are viewed “as a floor below
which the City’s Human Rights law cannot
fall, rather than a ceiling above which the
local law cannot rise,” and only to the extent
that those state or federal law decisions may
provide guidance as to the “uniquely broad
and remedial purposes” of the local law
(Local Law No. 85 [2005] of City of NY §§ 1,
7). In a report on the amendments (see Rep
of Comm on Gen Welfare, Aug. 17, 2005,
2005 NY City Legis Ann at 537), the
Committee on General Welfare rejected
prior reasoning by this Court that the City
Council “would need to amend the City
HRL to specifically depart from a federal
doctrine if it wanted to do so” (Bennett v.
Health Mgt. Sys., Inc., 936 N.Y.S.2d 112
[2011]; McGrath v. Toys “R” Us, Inc., 821
N.E.2d 519 [2004]). As a result, this Court
has acknowledged that all provisions of the
NYCHRL must be construed “broadly in
favor of discrimination plaintiffs, to the
extent that such a construction is reasonably
possible” (Albunio v. City of New York, 947
N.E.2d 135 [2011]).
Chauca, 89 N.E.3d at 90. Because the New York Court of
Appeals has determined that the standard for recovering
punitive damages under the NYCHRL should be less
demanding than the federal Title VII standard, C&W’s
contention that the NYCHRL mandates a burden of clear
and convincing evidence -- a burden that is higher than

31a
even the rejected Title VII standard -- fails under the
weight of precedent and logic. It contradicts the reasoning
and holding of the Chauca court. In short, the suggested
instruction was wrong as a matter of law, and the district
court did not err in rejecting it. See Shervin, 804 F.3d at
46–48.
C. Sufficiency of the Evidence.
C&W contends that the district court erred “by
rejecting C&W’s post-verdict challenges to awards of
compensatory and punitive damages that were
unsupported and against the weight of the evidence.”
C&W argues that Rinsky fell far short of meeting his
burden to show that age discrimination was the “but-for”
cause of termination. As discussed supra pp. 18–23,
however, the NYCHRL does apply, and Rinsky needed
only to show that age discrimination was a “substantial
factor” in his termination. We thus review the district
court’s denial of the post-verdict motions using the
“substantial factor” standard. We affirm the district
court’s denial of the motion for JMOL under de novo
review and its denial of the motion for a new trial under
abuse-of-discretion review.
We review de novo the district court’s post-verdict
denial of the Federal Rule of Civil Procedure 50 motion for
JMOL, “tak[ing] the facts in the light most favorable to
the verdict.” Jennings v. Jones, 587 F.3d 430, 438 (1st Cir.
2009); see also Kennedy v. Town of Billerica, 617 F.3d 520,
527 (1st Cir. 2010). “We reverse the district court’s denial
of such motions if the jury would not have a legally
sufficient evidentiary basis for its verdict.” Kennedy, 617
F.3d at 527 (quoting Jennings, 587 F.3d at 436). “This
review is weighted toward preservation of the jury verdict,
which stands unless the evidence was so strongly and
overwhelmingly inconsistent with the verdict that no
reasonable jury could have returned it.” Crowe v. Bolduc,

32a
334 F.3d 124, 134 (1st Cir. 2003) (citing Primus v. Galgano,
329 F.3d 236, 241–42 (1st Cir. 2003)); see also Granfield v.
CSX Transp., Inc., 597 F.3d 474, 482 (1st Cir. 2010);
Sanchez v. P.R. Oil Co., 37 F.3d 712, 716 (1st Cir. 1994).
We review for abuse of discretion the district
court’s post-verdict denial of the Federal Rule of Civil
Procedure 59 motion for a new trial. Jennings, 587 F.3d
at 438 (citing Gutierrez-Rodriguez v. Cartagena, 882 F.2d
553 (1st Cir. 1989) and Transamerica Premier Ins. Co. v.
Ober, 107 F.3d 925 (1st Cir. 1997)).
Appellate review of a district court’s
disposition of a Rule 59(a) motion is even
more circumscribed [than appellate review
of a denial of a motion for JMOL]; a district
court may set aside a jury’s verdict and
order a new trial only if the verdict is against
the demonstrable weight of the credible
evidence or results in a blatant miscarriage
of justice. And, moreover, a trial judge’s
refusal to disturb a jury verdict is further
insulated because it can be reversed solely
for abuse of discretion.
Sanchez, 37 F.3d at 717 (internal citations omitted) (citing
Coffran v. Hitchcock Clinic, Inc., 683 F.2d 5, 6 (1st Cir.
1982); Freeman v. Package Mach. Co., 865 F.2d 1331, 1334
(1st Cir. 1988); Milone v. Moceri Family, Inc., 847 F.2d 35,
37 (1st Cir 1988). Abuse of discretion occurs “when a
material factor deserving significant weight is ignored,
when an improper factor is relied upon, or when all proper
and no improper factors are assessed, but the court makes
a serious mistake in weighing them.” Indep. Oil & Chem.
Workers of Quincy, Inc. v. Procter & Gamble Mfg. Co., 864
F.2d 927, 929 (1st Cir. 1988). “[W]e will reverse a judge’s
decision not to grant a motion for a new trial ‘only if the
verdict is so seriously mistaken, so clearly against the law

33a
or the evidence, as to constitute a miscarriage of justice.’”
Gutierrez-Rodriguez, 882 F.2d at 558 (quoting Levesque
v. Anchor Motor Freight, Inc., 832 F.2d 702, 703 (1st Cir.
1987)).
C&W has failed to meet its burden of showing
either that there was no legally sufficient basis for the
verdict or that the district court abused its discretion. We
thus affirm the district court’s denial of JMOL and the
motion for a new trial.
As we have noted, C&W contends that Rinsky was
fired because he moved to Boston without its approval,
and then refused to return to New York when C&W asked
him to do so. C&W argues that “although Rinsky
premised his entire case on the notion that C&W created
a ‘pretext’ to terminate him, there is not one iota of
evidence in the record to explain why C&W would have
been motivated to do so.” C&W further contends that
“[t]here also was no direct evidence in the record” to show
age discrimination and provides a litany of reasons as to
why it would not have made sense for Rinsky’s age to
motivate his termination, from his “excellent performance
reviews” to his experience with the AS/400 system and the
age of his replacement. C&W, in sum, asserts that the lack
of direct evidence on the record plainly showing age
discrimination creates an evidentiary insufficiency,
entitling C&W either to JMOL or a new trial.
C&W, however, uses the wrong standard. As the
district court noted in its order and memorandum denying
C&W’s motion, the NYCHRL is “uniquely broad and
protective,” allowing for the “use of circumstantial
evidence, by disproving Defendant’s proffered nondiscriminatory explanation, and then relying on
appropriate inferences.” The district court followed the
standard as summarized by the Second Circuit in Mihalik,
715 F.3d at 108–09:

34a
In amending the NYCHRL, the City
Council expressed the view that the
NYCHRL had been “construed too
narrowly” and therefore “underscore[d]
that the provisions of New York City’s
Human Rights Law are to be construed
independently from similar or identical
provisions of New York state or federal
statutes.” Restoration Act § 1. To bring
about this change in the law, the Act
established two new rules of construction.
First, it created a “one-way ratchet,” by
which interpretations of state and federal
civil rights statutes can serve only “‘as a
floor below which the City’s Human Rights
law cannot fall.’” Loeffler, 582 F.3d [268,][]
278 [(2d 2009)] (quoting Restoration Act §
1). Second, it amended the NYCHRL to
require that its provisions “be construed
liberally for the accomplishment of the
uniquely broad and remedial purposes
thereof, regardless of whether federal or
New York State civil and human rights laws,
including those laws with provisions
comparably-worded to provisions of this
title[,] have been so construed.” Restoration
Act § 7 (amending N.Y.C. Admin. Code § 8130).
While noting that the Restoration Act, amending
the NYCHRL, set forth a “one-way ratchet,” such that the
federal standard is the floor, the Mihalik court also
observed that “[i]t is unclear whether, and to what extent,
the McDonnell Douglas burden-shifting analysis [used for
federal age discrimination claims] has been modified for
NYCHRL claims.” Id. at 110 n.8; see also McDonnell

35a
Douglas Corp. v. Green, 411 U.S. 792 (1973). The answer
to this question was given in 2016 by New York City’s
Local Law No. 35, amending Administrative Code § 8-130
“to provide additional guidance to the development of an
independent body of jurisprudence for the [NYCHRL]
that is maximally protective of civil rights in all
circumstances.” N.Y.C. Local L. 35 of 2016 § 1 (Mar. 28,
2016) (codified at N.Y.C. Admin. Code § 8-130). The
amendment ratified three decisions under the NYCHRL,
including Bennett v. Health Mgmt. Sys., Inc., 936
N.Y.S.2d 112, 116 (App. Div. 2011). It explained that each
of the cases “correctly understood and analyzed the liberal
construction requirement” of the NYCHRL and
“developed legal doctrines accordingly that reflect the
broad and remedial purposes of [the NYCHRL].” N.Y.C.
Admin. Code § 8-130. See also Morse v. Fidessa Corp., 84
N.Y.S.3d 50, 52–53 (App. Div. 2018) (quoting Restoration
Act and March 8, 2016 Committee on Civil Rights report
accompanying Local Law 35). Noting that different
evidentiary frameworks may be appropriate for different
kinds of cases, Bennett explained that to establish a claim
for discrimination under the NYCHRL, a plaintiff must
satisfy either the McDonnell Douglas standard, or a lesser
burden in cases analyzing liability under a mixed motives
theory. See Bennett, 936 N.Y.S.2d at 117–21 (comparing
various burdens of proof in discrimination claims).
Rinsky’s age discrimination claim satisfies both.
Discriminatory intent can be difficult to prove. In
Reeves v. Sanderson Plumbing Prod., Inc., 530 U.S. 133
(2000), the Supreme Court held that the McDonnell
Douglas framework is applicable to federal age
discrimination claims (“Reeves/McDonnell Douglas”),
setting forth when it is appropriate for a jury to infer
discrimination if it declines to credit the employer’s
explanation for an adverse employment action. See

36a
Reeves, 530 U.S. at 143–44. “Proof that the defendant’s
explanation is unworthy of credence is simply one form of
circumstantial evidence that is probative of intentional
discrimination, and it can be quite persuasive.” Id. at 147.
A jury may infer unlawful discrimination where there is
(1) a prima facie case of discrimination and (2) “sufficient
evidence to find that the employer’s asserted justification
is false.” Id. at 148. This does not mean “that such a
showing by the plaintiff will always be adequate to sustain
a jury’s finding of liability.” Id. Where, for example, “the
record
conclusively
revealed
some
other,
nondiscriminatory reason for the employer’s decision, or
if the plaintiff created only a weak issue of fact as to
whether the employer’s reason was untrue . . . ”, “an
employer would be entitled to judgment as a matter of
law.” Id.
Whether judgment as a matter of law is
appropriate in any particular case will
depend on a number of factors . . .
includ[ing] the strength of the plaintiff’s
prima facie case, the probative value of the
proof that the employer’s explanation is
false, and any other evidence that supports
the employer’s case . . . .
Id. at 148–49. In such cases, a court should not order
JMOL for the defendant absent sufficient evidence “to
conclusively demonstrate that [the employer’s] actions
were not discriminatorily motivated.” Id. at 153 (quoting
Furnco Constr. Corp. v. Waters, 438 U.S. 567, 580 (1978)).
As discussed above, one way for a plaintiff to
establish discrimination under the NYCHRL is to fulfill
the requirements of the Reeves/McDonnell Douglas
criteria. Here, the first element of the Reeves/McDonnell
Douglas inquiry is satisfied, as there is sufficient evidence
on the record for the jury to find that Rinsky met his

37a
burden of showing a prima facie case of discrimination. A
prima facie case of discrimination under federal law
requires that:
(i) at the relevant time the plaintiff was a
member of the protected class; (ii) the
plaintiff was qualified for the job; (iii) the
plaintiff suffered an adverse employment
action; and (iv) the adverse employment
action occurred under circumstances giving
rise to an inference of discrimination, such
as the fact that the plaintiff was replaced by
someone ‘substantially younger.’
Roge v. NYP Holdings, Inc., 257 F.3d 164, 168 (2d Cir.
2001) (quoting O’Connor v. Consol. Coin Caterers Corp.,
517 U.S. 308, 313 (1996)) (applying the standard for a
prima facie case of racial discrimination by an employer,
set forth in McDonnell Douglas, 411 U.S. at 793, to an age
discrimination case); see also Woodman v. WWOR-TV,
Inc., 411 F.3d 69 (2d Cir. 2005). At 63 years old, Rinsky
was indisputably a member of the protected class. Both
parties, moreover, agree that Rinsky was qualified for his
job, receiving “excellent” performance reviews, and that
C&W terminated him. The fourth requirement of a prima
facie showing is met by substantially the same record
evidence as that of the finding that C&W’s nondiscriminatory justification was false, including C&W’s
replacement of Rinsky with a “substantially younger”
employee, fifteen years his junior, see O’Connor, 517 U.S.
at 313, and buttressed by substantially the same record
evidence discussed below supporting the finding that
C&W’s non-discriminatory justification was false. We
conclude that Rinsky established a prima facie case of age
discrimination.
The second element of the Reeves/McDonnell
Douglas inquiry is also satisfied, as there is sufficient

38a
evidence on the record for the jury to find that C&W’s
justification was false. Making inferences most favorable
to the plaintiff, a reasonable jury could find from the
evidence of record that Rinsky had long worked remotely
for C&W, C&W knew of Rinky's intent to move to Boston,
C&W treated other employees requesting transfers
differently, and C&W never warned Rinsky that his move
to Boston could result in termination. Rinsky was the
oldest member of his department, and C&W replaced
Rinsky with a significantly younger employee. Lastly, the
record evidence shows that C&W began formulating a
plan to replace Rinsky prior to his move to Boston. The
district court thus concluded that “the evidence presented
at trial strongly suggested that Defendant’s asserted
reason for firing Plaintiff was false.” The district court
found that the evidence suggested “Defendant allowed
Plaintiff to think that he had permission to transfer,
waited until he moved to Boston and his replacement was
trained, and then used the move as a pretense to fire him.”
We conclude that the district court’s finding was not “so
clearly against the law or the evidence” and therefore not
an abuse of discretion. Gutierrez-Rodriguez, 882 F.2d at
558 (quoting Levesque, 832 F.2d at 703).
With the first two elements met, we then must
examine, as the district court rightly stated, “whether the
record ‘conclusively revealed’ an alternative, nondiscriminatory reason for the employer’s decision.”
Reeves, 530 U.S. at 148–49. On C&W’s side of the ledger,
the record does indicate that Reid was close to Rinsky in
age, Rinsky was skilled at his position, and senior
management had concerns about the number of
employees working remotely. However, nothing on the
record conclusively shows that C&W’s motivation for
firing Rinsky was non- discriminatory. The district court
noted “the lack of any indication in the record of an

39a
obvious, alternative, non-discriminatory explanation for
Plaintiff’s firing” and found “the jury permissibly inferred
that Defendant’s continued insistence that it fired Plaintiff
for moving without permission was covering up an
impermissible motive, even where there was little direct
evidence of age discrimination.” Considering both C&W’s
burden to show conclusively the non-discriminatory
reason for Rinsky’s termination and our obligation to
weight our review of the record “toward preservation of
the jury verdict,” we conclude that the record provides an
insufficient basis for us to overturn the district court’s
denial of JMOL. Crowe, 334 F.3d at 134. The district
court, therefore, did not abuse its discretion, as the
evidence substantially supports its finding that Rinsky
satisfied the age discrimination analysis under
Reeves/McDonnell Douglas.
As we have noted, apart from the more stringent
federal McDonnell Douglas framework, a plaintiff may
also establish a claim of age discrimination in violation of
the NYCHRL under the less onerous mixed motive
framework, as the district court recognized.12 The
12

The judge stated:

Alternatively, a plaintiff may also prevail in a
NYCHRL action “if he or she proves that unlawful
discrimination was one of the motivating factors,
even it was not the sole motivating factor for an
adverse employment decision.” Melman v.
Montefiore Med Ctr., 989 A.D.3d 107, 127 (N.Y. App.
Div. 2012). “If a plaintiff can prevail on a ‘mixed
motive’ theory, it follows that he or she need not
prove that the reasons proffered by the employer for
the challenged action was actually false or entirely
irrelevant.”
Id.
Rather, the plaintiff must
demonstrate that the challenged action was “more
likely than not based in whole or in part on

40a
difference in analysis has been well articulated in a recent
age discrimination case arising under the NYCHRL:
The McDonnell Douglas framework and the
mixed motive framework diverge only after
the plaintiff has established a prima facie
case of discrimination . . . and the defense
has responded to that prima facie case by
presenting
admissible
evidence
of
“legitimate,
independent,
and
nondiscriminatory reasons to support its
employment decision” (Forrest v. Jewish
Guild for the Blind, 3 N.Y.3d 295, 305, 786
N.Y.S.2d 382, 819 N.E.2d 998 [2004]
[internal quotation marks omitted]).
At that point, under McDonnell Douglas,
the burden shifts to the plaintiff to produce
evidence tending to “prove that the
legitimate reasons proffered by the
defendant were merely a pretext for
discrimination.” (id.). By contrast, under
the mixed motive analysis, the plaintiff may
defeat the defendant's evidence of
legitimate reasons for the challenged action
by coming forward with evidence from
which it could be found that “unlawful
discrimination was one of the motivating
factors, even if it was not the sole motivating
factor, for [the] adverse employment
decision” (Melman v. Montefiore Med. Ctr.,
98 A.D.3d 107, 127, 946 N.Y.S.2d 27 [1st
Dept.2012]).

discrimination.” Id. (quoting Aulicino v. N.Y.C. Dep’t
of Homeless Servs., 580 F.3d 73, 80 (2d Cir. 2009)).

41a
Hamburg v. NYU Sch. of Med., 62 N.Y.S.3d 26, 32 (App.
Div. 2017).
We have already concluded that the district court
did not err in concluding that Rinsky established at trial a
prima facie case of discrimination. We have further
concluded that the district court did not abuse its
discretion in finding that the trial evidence “strongly
suggested that [C&W]’s asserted reason for firing
[Rinsky] was false.” Thus, under a mixed motive theory of
liability, the jury’s verdict could also be sustained. In
short, whether analyzed under the McDonnell Douglas
framework or the mixed motive framework, we affirm the
district court’s denials of C&W’s motions for JMOL and a
new trial.
Finally, we are mindful of the “maximally
protective” reach of the NYCHRL in addressing claims of
discrimination. N.Y.C. Admin. Code § 8-130. “The
independent analysis of NYCHRL claims must be
targeted to understanding and fulfilling the NYCHRL’s
uniquely broad and remedial purposes, which go beyond
those of counterpart state and federal civil rights laws.”
Id. at Case Notes ¶3. The New York City government was
clear as to the legislative intent of the NYCHRL: “it is the
intention of the Council that judges interpreting the City’s
Human Rights Law are not bound by restrictive state and
federal rulings and are to take seriously the requirement
that this law be liberally and independently construed.”
David N. Dinkins, Mayor, New York City, Remarks at
Public Hearing on Local Laws (June 18, 1991) (on file with
Committee on General Welfare) available at
http://antibiaslaw.com/sites/default/files/all/LL39LegHist
-Mayor.pdf. As we have noted, that commitment has only
been strengthened by the two rules of construction set
forth in the Restoration Act in 2005 and by the most recent
amendment in 2016. Here, the district court first reviewed

42a
C&W’s motions for JMOL and a new trial under the more
restrictive federal employment law. Finding first that the
record sufficiently supported the jury’s finding of age
discrimination under this more restrictive standard, the
district court then found the jury’s verdict to be supported
under the more “liberally . . . construed” NYCHRL. We
agree.
III.
We uphold the district court’s ruling denying
C&W’s motion for JMOL or a new trial, and we reject
C&W’s other assignments of error. Therefore, we affirm
the judgment of the district court.

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

No. 18-1302

Yury Rinsky,
Plaintiff - Appellee,
v.
Cushman & Wakefield, Inc.,
Defendant - Appellant.

Appeal from U.S. District Court for the District of
Massachusetts
(16-cv-10403-ADB)

JUDGMENT
Entered: March 8, 2019
This cause came on to be heard on appeal from the
United States District Court for the District of
Massachusetts and was argued by counsel.
Upon consideration whereof, it is now here ordered,
adjudged and decreed as follows: The judgment of the
district court is affirmed.
(43a)

44a
By the Court:
Maria R. Hamilton, Clerk
cc:
Benjamin M. McGovern
Edward F. Whitesell Jr.
Ralph T. Lepore
Robert R. Berluti
Sawnie A. McEntire
Paula Danielle Taylor
John William Dennehy
Mark D. Szal

APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
No. 16-cv-10403-ADB
Yury Rinsky,
Plaintiff,
v.
Cushman & Wakefield, Inc.,
Defendant.

MEMORANDUM AND ORDER
DENYING DEFENDANT’S POST-TRIAL MOTIONS

Filed: March 07, 2018
BURROUGHS, D.J.
Plaintiff Yury Rinsky filed this case in Massachusetts
state court in January 15, 2016, alleging that Defendant
Cushman & Wakefield, Inc., his former employer,
discriminated against him based on his age and disability.
[ECF No. 1-1 at 5–13]. Defendant removed the case to
this Court on February 25, 2016, invoking the Court’s
diversity jurisdiction. [ECF No. 1]. After a five-day jury
(45a)

46a
trial, on April 14, 2017, the jury returned a verdict finding
that Plaintiff’s age was a substantial factor in Defendant’s
decision to terminate him, but that Plaintiff’s disability, if
any, was not a substantial factor in the decision to
terminate. [ECF No. 60]. The jury awarded Plaintiff
$290,000 in back pay, $135,000 in front pay, $850,000 in
punitive damages, and nothing for emotional distress,
resulting in a total award of $1,275,000. Id. Now before
the Court are Defendant’s renewed motion for judgment
as a matter of law pursuant to Fed. R. Civ. P. 50(b) [ECF
No. 74] and its motion for a new trial under Fed. R. Civ. P.
59(a) [ECF No. 75]. For the reasons set forth below, both
motions are denied.
STANDARD OF REVIEW
Defendant’s Rule 50 motion for judgment as a matter
of law is based on the contention that the evidence was not
sufficient to support the jury’s verdict. “A party seeking
to overturn a jury verdict faces an uphill battle.” Marcano
Rivera v. Turabo Med. Ctr. P’ship, 415 F.3d 162, 167 (1st
Cir. 2005).
“Courts may only grant a judgment
contravening a jury’s determination when the evidence
points so strongly and overwhelmingly in favor of the
moving party that no reasonable jury could have returned
a verdict adverse to that party.” Id. (quoting Rivera
Castillo v. Autokirey, Inc., 379 F.3d 4, 9 (1st Cir. 2004)). In
evaluating a motion for judgment as a matter of law, the
Court must consider “the evidence presented to the jury,
and all reasonable inferences that may be drawn from
such evidence, in the light most favorable to the jury
verdict.” Osorio v. One World Techs. Inc., 659 F.3d 81, 84
(1st Cir. 2011) (quoting Granfield v. CSX Transp., Inc., 597
F.3d 474, 482 (1st Cir. 2010)).
In contrast, the Court’s power to grant a Rule 59
motion for a new trial “is much broader than its power to
grant a [motion for judgment as a matter of law].”

47a
Jennings v. Jones, 587 F.3d 430, 436 (1st Cir. 2009). The
Court may grant a motion for a new trial “if the verdict is
against the demonstrable weight of the credible evidence,”
or if it “results in a blatant miscarriage of justice.” Foisy
v. Royal Maccabees Life Ins. Co., 356 F.3d 141, 146 (1st
Cir. 2004) (quoting Sanchez v. P.R. Oil Co., 37 F.3d 712,
717 (1st Cir. 1994)). “The district court may ‘independently
weigh the evidence’ in deciding whether to grant a new
trial.” Cham v. Station Operators, Inc., 685 F.3d 87, 97
(1st Cir. 2012) (quoting Jennings, 587 F.3d at 435). “[A]
district court wields ‘broad legal authority’ when
considering a motion for a new trial. . . .” Jennings, 587
F.3d at 436 (quoting de Perez v. Hosp. del Maestro, 910
F.2d 1004, 1006 (1st Cir.1990)). At the same time, a
“district judge cannot displace a jury’s verdict merely
because [she] disagrees with it’ or because ‘a contrary
verdict may have been equally . . . supportable.’” Id.
(quoting Ahern v. Scholz, 85 F.3d 774, 780 (1st Cir. 1996)).
“[W]hen an argument that the evidence was insufficient
forms the basis of a motion for new trial, the district court
is generally well within the bounds of its discretion in
denying the motion using the same reasoning as in its
denial of a motion for judgment as a matter of law.” Lama
v. Borras, 16 F.3d 473, 477 (1st Cir. 1994).
EVIDENCE AT TRIAL
In reaching its verdict, the jury could have found the
following facts, based on the evidence presented at trial. 1
Plaintiff began working for Defendant in New York
City in 1988. From 2009 to 2015, he was employed as a
While the Court is not required to weigh evidence or draw inferences
in favor of the jury’s verdict for purposes of a Rule 59 motion, in this
case, the Court does not believe that the verdict is against the weight
of the evidence or that the jury erred in making the credibility
determinations or drawing the inferences that it did.
1

48a
software engineer specializing in the AS/400 computer
system. In 2012, Defendant instructed Plaintiff to work
remotely part time due to a lack of space in the New York
City office, so from 2012 to 2015, Plaintiff worked remotely
three to four days a week, spending only one or two days
per week in the office. Defendant did not impose any
restrictions as to where Plaintiff performed remote work,
and sometimes Plaintiff would work remotely from Boston
while visiting his daughter. During this time, Plaintiff
continued to receive excellent annual performance
reviews.
Plaintiff learned in March 2015 that his supervisor,
Colin Reid, was transferring from New York to Miami.
Later the same month, Plaintiff asked Reid if he could
transfer to Boston. Reid responded that he was too busy
to discuss it at the time, but that they could talk about it
later. In April 2015, Plaintiff informed Reid that he had
sold his house, but with the option to continue living in it
after the sale went through. Plaintiff again requested
permission to transfer to Boston. Reid said he was willing
to allow Plaintiff to transfer, especially given the fact that
Plaintiff was already working remotely half of the time,
although he would have to check with his manager,
Andrew Hamilton. A few days later, Plaintiff asked Reid
if he had spoken to Hamilton yet; Reid responded that he
had not. Approximately four days later, in mid-April 2015,
Plaintiff asked again, and Reid responded that Hamilton
had said it was “no problem” for Plaintiff to work out of
the Boston office. Plaintiff asked Reid what the next steps
were, and Reid responded that the chief information
officer would need to arrange for a cubicle for Plaintiff in
the Boston office. At this point, Plaintiff understandably
believed that his transfer to Boston had been approved.
On Sunday, May 17, 2015, Plaintiff sent an email to
Reid in which he stated that he planned to move to Boston

49a
on Wednesday, May 27, and asked to take four personal
days off near that time. Reid responded, “Okay. We will
talk on Tuesday [May 19].” When Plaintiff spoke with
Reid on May 19, they discussed logistical matters such as
his equipment and who would be Plaintiff’s contact in the
Boston office. When Plaintiff offered to come to the New
York office one day per week, Reid stated that might not
be necessary, and that Plaintiff would likely only have to
come to New York occasionally, as needed, or possibly at
the end of each month, when the workload was the
heaviest. Plaintiff’s last day in the New York office was
May 22. On that day, he met with Reid to discuss his
current projects and what he would work on in June.
Plaintiff also said goodbye to his coworkers in the New
York office, and told them he was transferring to Boston.
Throughout the time period at issue, neither Reid nor
any other individual mentioned to Plaintiff that Defendant
had a specific process for handling transfer requests, nor
did anyone tell Plaintiff that any other authorization or
additional steps were required beyond obtaining
permission from Reid and Hamilton. As far as Plaintiff
knew, Defendant did not have any official or unofficial
policies concerning transferring offices. Prior to his
departure, nobody told Plaintiff that his transfer request
was still pending, that there was any problem with it, that
it was not approved, or that he might lose his job if he
moved.
Plaintiff began working from Boston on May 28.
Shortly thereafter, an employee of Defendant who
managed computer inventory emailed Plaintiff to ask if he
still needed his desktop computer, which was in New York.
Plaintiff replied, copying Reid, that he would need it in a
couple weeks once he was assigned a cubicle in the Boston
office. Reid sent an email in response, copying Hamilton,
stating that Plaintiff might be getting new equipment in

50a
Boston, because a consultant would be sitting at Plaintiff’s
previous space in New York. Plaintiff performed his work
remotely during the first few weeks of June. He
communicated regularly with Reid, who never mentioned
any issues concerning the transfer.
Plaintiff was invited to participate in a conference call
on June 22, 2015 with Reid, Hamilton, and a
representative from HR, Katrina Hicks. During the call,
Hamilton informed Plaintiff that he would be required to
be physically present in the New York office five days per
week, beginning the following day. Hamilton also stated
that it would be in Plaintiff’s best interest to resign, which
Plaintiff declined to do. After the call ended, Reid sent an
email, with a draft resignation letter attached, to Plaintiff,
copying Hamilton and Hicks, that stated, “this is the
response that HR is expecting from you based on our
conversation this morning.”2 The proposed text included
this statement: “After informing you of my decision to
relocate and understanding the need for my role is located
in [Defendant’s] New York office, I have decided not to
continue my employment.” Plaintiff refused to submit the
proposed resignation letter. The next day, Plaintiff lost
access to the AS/400 system, and after a period of review,
on July 14, 2015, Reid sent an email to Plaintiff stating that
he had been terminated.
Unbeknownst to Plaintiff, Defendant had formulated a
plan to hire a replacement and then terminate Plaintiff
even before Plaintiff moved to Boston. On May 14, 2015,
The email misspelled Plaintiff’s first name as “Yuri,” even though
Reid had worked with Plaintiff for 27 years. In addition, Hicks stated
that she worked with Reid and a “partnership” of others to prepare
the letter terminating Plaintiff’s employment, although the letter did
not indicate that anyone other than Reid was involved in its
preparation.
2

51a
Reid sent an email to Hamilton asking him to “think
through the options and risks of replacing [Plaintiff] (via
contractor or permanent role) so we can evaluate all the
pros and cons of keeping and replacing.”3 Reid and
Hamilton had a meeting to discuss the matter on May 19.
On May 20, Reid contacted Edgardo Felix, Plaintiff’s
eventual replacement, to ask if he was interested in
working for Defendant, and to inquire as to whether he
had experience with the AS/400 system. On May 27,
Hamilton sent an email to Leif Maiorini, his supervisor,
who was a senior managing director for Defendant. The
email explained that Hamilton, Reid, and Hicks had
agreed on a plan to onboard Plaintiff’s replacement,
transfer knowledge from Plaintiff to his replacement,
retain Plaintiff for about nine weeks, and then work with
Hicks on the “official exit (mitigating litigation risks).”
Felix was hired as a contractor to work on the AS/400
system in early June. For several weeks leading up to the
June 22 phone call with Plaintiff, Reid, Hamilton,
Maiorini, Hicks, and Craig Cuyar, the head of the
department, corresponded via email about when to
conduct what they referred to as Plaintiff’s “termination”
or “separation,” depending on the progress of the
knowledge transfer and Plaintiff’s work on key tasks.
During the time at issue, Defendant did not maintain a
formal process for evaluating employee transfer requests,
and there was no written policy concerning transfers.
Instead, transfer requests were discussed verbally by the
managers involved, as well as HR. Maiorini testified that,
The header of the email indicates that it was sent by Reid to
Hamilton, and Reid testified that he sent the email, but the body of
the email is addressed to Reid from Hamilton, and based on the
content, it appears more likely that Hamilton was the sender. The
email’s relevance to the case is essentially the same either way,
however.
3

52a
in general, the process was that an employee would make
a verbal transfer request to his or her manager, and then
the manager would be responsible for discussing the
request with the other, more senior individuals whose
approval was necessary. No further action from the
employee was required. Maiorini characterized the
process as “informal,” and stated that managers can skip
steps or ignore steps in the process.
In May 2015, another employee of Defendant, Jay
Leiser, who worked in the same department as Plaintiff,
asked to transfer to Florida. Leiser informed his
manager, Bill Wolf, that his wife had an opportunity to
start a dental practice in Florida, and that he had already
made plans to sell his home in New York and move to
Florida. In an email sent the next month, on June 4, Cuyar
informed Maiorini that he wanted to address Leiser’s
compensation since he was moving to an area with a lower
cost of living, but that he wanted to handle Plaintiff’s move
differently, following the precedent established when a
previous employee moved without informing Defendant
first, despite the fact that Plaintiff’s situation was more
analogous to Leiser’s. Not long after, Leiser moved to
Florida. For the first six months, Leiser worked remotely
one or two days per week, and came back to New York to
work in person the rest of the time. Defendant then
granted him permission to transfer to Florida. In
addition, another employee in the department, Steve
Lipka, transferred to Boston in or around 2011.
Plaintiff was 63 years old at the time he was
terminated. He was the oldest person in his department.
Plaintiff’s replacement, Felix, was approximately 48 years
old. Hamilton, Cuyar, and Maiorini were all in their 40s,
while Reid was approximately 61.

53a
DISCUSSION
A. Sufficiency of the Evidence
Defendant first contends that it is entitled to judgment
as a matter of law, or alternatively, that it should receive a
new trial, because the jury’s verdict was unsupported and
against the weight of the evidence given that there was no
direct evidence to prove that Plaintiff was terminated
because of his age. Instead, Defendant claims that
Plaintiff was fired because he moved to Boston without
Defendant’s approval, and then refused to return to New
York when Defendant asked him to do so.4
Plaintiff brought his claim pursuant to the New York
City Human Rights Law (“NYCHRL”), which prohibits
many forms of discrimination, including, as relevant here,
forbidding employers from discriminating based on age.
N.Y.C. Admin. Code § 8-107. For many years, courts
construed the NYCHRL “to be coextensive with its
federal and state counterparts.” Mihalik v. Credit
Agricole Cheuvreux N. Am., Inc., 715 F.3d 102, 108 (2d
Cir. 2013). In 2005, however, the New York City Council
passed the Local Civil Rights Restoration Act of 2005,
which requires courts to perform an “independent
analysis” of NYCHRL claims, because the council
believed that courts were construing the NYCHRL too
Plaintiff argues that the district court cannot grant Defendant’s
motion for judgment as a matter of law where the evidence presented
at trial was not substantially different from that considered at the
summary judgment stage. Plaintiff’s argument is based on a case in
which the Second Circuit determined that, after the trial court’s grant
of summary judgment had been reversed by the appellate court, the
trial court could not then grant judgment as a matter of law based on
essentially the same evidence. See Piesco v. Koch, 12 F.3d 332, 341–
42 (2d Cir. 1993). In this case, however, where there has been no
appeal and no appellate decision, the rule set forth in Piesco is
inapposite.
4

54a
narrowly. Id. at 109. The Restoration Act “established
two new rules of construction.” Id. “First, it created a
‘one-way ratchet,’ by which interpretations of state and
federal civil rights statutes can serve only ‘as a floor below
which the City’s Human Rights law cannot fall.’” Id.
(quoting Loeffler v. Staten Island Univ. Hosp., 582 F.3d
268, 278 (2d Cir. 2009)). “Second, it amended the
NYCHRL to require that its provisions ‘be construed
liberally for the accomplishment of the uniquely broad and
remedial purposes thereof, regardless of whether federal
or New York State civil and human rights laws, including
those laws with [comparably-worded provisions], have
been so construed.’” Id. (quoting Restoration Act § 7).
“Thus, even if the challenged conduct is not actionable
under federal and state law, federal courts must consider
separately whether it is actionable under the broader New
York City standards.” Id. The Second Circuit has
regularly noted error in district court decisions where the
district courts applied federal standards to NYCHRL
claims. Id. (citing cases).
For claims based on federal law, courts regularly
acknowledge that “‘employers are rarely so cooperative as
to include a notation in the personnel file’ that their actions
are motivated by factors expressly forbidden by law.”
Chambers v. TRM Copy Ctrs. Corp., 43 F.3d 29, 37 (2d
Cir. 1994) (quoting Ramseur v. Chase Manhattan Bank,
865 F.2d 460, 464 (2d Cir. 1989)). “[D]irect evidence of
discrimination is difficult to find precisely because its
practitioners deliberately try to hide it.” Id. (quoting
Dister v. Cont’l Grp., Inc., 859 F.2d 1108, 1112 (2d Cir.
1988)). “[A]n employer who discriminates is unlikely to
leave a ‘smoking gun’ attesting to a discriminatory intent,”
which means that “a victim of discrimination is seldom
able to prove his claim by direct evidence, and is usually
constrained to rely on circumstantial evidence.” Id.

55a
Due to the fact that discriminatory intent can be
difficult to prove, the Supreme Court developed an
analytic framework in Reeves v. Sanderson Plumbing
Products, Inc., 530 U.S. 133, 147–49 (2000) to determine
where it is appropriate for a jury to infer discrimination if
it declines to credit the employer’s explanation for an
adverse employment action. “Proof that the defendant’s
explanation is unworthy of credence is simply one form of
circumstantial evidence that is probative of intentional
discrimination, and it may be quite persuasive.” Reeves,
530 U.S. at 147. “Moreover, once the employer’s
justification has been eliminated, discrimination may well
be the most likely alternative explanation, especially since
the employer is in the best position to put forth the actual
reason for its decision.” Id. “Evidence suggesting that a
defendant accused of illegal discrimination has chosen to
give a false explanation for its actions gives rise to a
rational inference that the defendant could be masking its
actual, illegal motivation.” Holcomb v. Iona Coll., 521 F.3d
130, 141 (2d Cir. 2008) (quoting Reeves, 530 U.S. at 154
(Ginsburg, J., concurring)). “Thus, a plaintiff’s prima facie
case, combined with sufficient evidence to find that the
employer’s asserted justification is false, may permit the
trier of fact to conclude that the employer unlawfully
discriminated.” Reeves, 530 U.S. at 148. Of course, this
does not mean “that such a showing by the plaintiff will
always be adequate to sustain a jury’s finding of liability.”
Id. For instance, where “the record conclusively revealed
some other, non-discriminatory reason for the employer’s
decision, or if the plaintiff created only a weak issue of fact
as to whether the employer’s reason was untrue,” the
employer could be entitled to judgment as a matter of law.
Id. Therefore, “[w]hether judgment as a matter of law is
appropriate in any particular case will depend on a
number of factors,” including “the strength of the

56a
plaintiff’s prima facie case, the probative value of the proof
that the employer’s explanation is false, and any other
evidence that supports the employer’s case.” Id. at 148–
49.
Alternatively, a plaintiff may also prevail in a
NYCHRL action “if he or she proves that unlawful
discrimination was one of the motivating factors, even if it
was not the sole motivating factor, for an adverse
employment decision.” Melman v. Montefiore Med. Ctr.,
98 A.D.3d 107, 127 (N.Y. App. Div. 2012). “If a plaintiff can
prevail on a ‘mixed motive’ theory, it follows that he or she
need not prove that the reason proffered by the employer
for the challenged action was actually false or entirely
irrelevant.” Id. Rather, under this analysis, the plaintiff
must demonstrate that the challenged action was “more
likely than not based in whole or in part on
discrimination.” Id. (quoting Aulicino v. N.Y.C. Dep’t of
Homeless Servs., 580 F.3d 73, 80 (2d Cir. 2009)).
Here, the evidence presented at trial strongly
suggested that Defendant’s asserted reason for firing
Plaintiff was false. Defendant’s employee, Reid, told
Plaintiff that in order to transfer to Boston, he only had to
obtain permission from Reid and Hamilton, and further
conveyed that he had received that permission. Plaintiff
was not aware of any policy to the contrary, or any
remaining issue that needed to be resolved. During the
period of time when Plaintiff made arrangements to move
to Boston, told his colleagues that he was transferring,
began working in Boston, and asked for equipment and
space in Boston, none of Defendant’s employees told
Plaintiff that he did not have permission to transfer or that
there was any problem with the transfer. Meanwhile,
however, Defendant’s employees were formulating a plan
to fire Plaintiff.

57a
Based on this evidence, it appears that Defendant
allowed Plaintiff to think that he had permission to
transfer, waited until he moved to Boston and his
replacement was trained, and then used the move as a
pretense to fire him. Had Defendant wished to continue
to employ Plaintiff, it simply could have told him, at any
point prior to his move to Boston, that he did not have
permission to transfer, or that he was still required to
work in the New York office on the same schedule as
before. The circumstances surrounding the June 22
conversation also undermine Defendant’s asserted reason
for firing Plaintiff. Although Defendant told Plaintiff that
he could keep his position if he returned to New York,
Defendant had already hired Plaintiff’s replacement,
made plans to “terminate” Plaintiff, and then put strong
pressure on Plaintiff to resign. Furthermore, Defendant
insisted that Plaintiff would have to be physically present
in the New York office five days per week, beginning the
very next day, despite the unreasonable time frame and
the same space constraints which had originally prompted
Defendant to require Plaintiff to work remotely at least
60% of the time in the years leading up to his termination.
In contrast, when Leiser, the similarly-situated employee
who wished to transfer to Florida, approached Defendant
with his transfer request, Defendant did not fire him for
planning to move or even moving to Florida; instead,
Defendant accommodated the move, first allowing him to
work remotely for part of the time and then eventually
allowing him to transfer. Thus, the evidence demonstrates
that Defendant’s purported justification for terminating
Plaintiff was false.
Next, continuing to apply the analytic framework set
forth in Reeves, the Court also concludes that Plaintiff
presented a prima facie case of age discrimination. To
make out a prima facie case of age discrimination, a

58a
plaintiff must show that “(1) he is a member of a protected
class; (2) he was qualified to hold the position; (3) he was
terminated from employment or suffered another adverse
employment action; and (4) the discharge or other adverse
action occurred under circumstances giving rise to an
inference of discrimination.” Melman, 98 A.D.3d 107, 113
(N.Y. App. Div. 2012). The first three factors appear to be
undisputed here: Plaintiff was a member of a protected
class due to his age; he was qualified to hold the position;
and he was terminated. As to the fourth factor, courts
have determined that, in general, “a plaintiff’s
replacement by a significantly younger person is evidence
of age discrimination” at the prima facie stage. Carlton v.
Mystic Transp., Inc., 202 F.3d 129, 135 (2d Cir. 2000)
(citing cases); see also Mendillo v. Prudential Ins. Co. of
Am., 156 F. Supp. 3d 317, 339 (D. Conn. 2016) (same). In
this case, Plaintiff’s replacement, Felix, was
approximately 15 years younger, which is enough to
satisfy the fourth factor. Thus, Plaintiff presented a prima
facie case of age discrimination.
Even though Plaintiff established a prima facie case of
age discrimination and provided compelling evidence that
Defendant’s purported justification was false, the Court
must still determine whether the jury permissibly
inferred that Defendant unlawfully discriminated against
him. As discussed supra, factors to consider include the
relative strength or weakness of the evidence presented
by each side, including the strength of the plaintiff’s prima
facie case, and whether the record “conclusively revealed”
an alternative, non-discriminatory reason for the
employer’s decision. Reeves, 530 U.S. at 148–49. Here,
much of Plaintiff’s case hinges on the fact that Defendant’s
purported reason for firing Plaintiff did not make sense,
given the way events unfolded, and also that the behavior
of Defendant’s employees was at odds with Defendant’s

59a
justification.
Indeed, the evidence indicates that
Defendant was actively attempting to create a pretext to
fire Plaintiff. Furthermore, Defendant treated Plaintiff
differently than another employee who made essentially
the same request within the same time period, which gives
rise to an inference that Defendant was singling out
Plaintiff for different treatment even if the reason for the
disparate treatment remained unclear. In light of this
evidence, Plaintiff’s solid prima facie case, and the lack of
any indication in the record of an obvious, alternative, nondiscriminatory explanation for Plaintiff’s firing, the jury
permissibly inferred that Defendant’s continued
insistence that it fired Plaintiff for moving without
permission was covering up an impermissible motive, even
where there was little direct evidence of age
discrimination. Moreover, Plaintiff was entitled to prove
his case through circumstantial evidence.
Although there is limited case law concerning postverdict motions challenging the sufficiency of the evidence
under the NYCHRL, the New York City Council has
repeatedly reiterated that the NYCHRL is meant to be
uniquely broad and protective, and that state and federal
civil rights statutes serve only as a floor below which the
NYCHRL cannot fall. Therefore, the Court determines
that, although this case might be a close call under federal
law given the lack of any direct evidence of age
discrimination, the scope of the NYCHRL permits
Plaintiff to prove his case through the use of
circumstantial evidence, by disproving Defendant’s
proffered non-discriminatory explanation, and then
relying on appropriate inferences.5 Accordingly, the
Defendant’s argument relies heavily on two cases, Malone v.
Lockheed Martin Corp., 610 F.3d 16, 20–22 (1st Cir. 2010) and
Marcano-Rivera v. Pueblo Int’l, Inc., 232 F.3d 245, 248–53 (1st Cir.
5

60a
evidence is sufficient to support the jury’s verdict that
Defendant violated the NYCHRL.
B. Existence of Subject Matter Jurisdiction
Next, Defendant argues that the jury’s verdict
deprived the Court of subject matter jurisdiction because
the NYCHRL protects only individuals who “inhabit or
are ‘persons in’ the City of New York.” Hoffman v. Parade
Publ’ns, 15 N.Y.3d 285, 289 (2010). In order to establish
that a plaintiff is protected by the law, the plaintiff must
establish that the “alleged discriminatory conduct had an
impact within the city.” Id. at 290 (quotation marks
omitted). Defendant contends that the jury verdict
reflects a finding that the jury believed Plaintiff had
permission to transfer to Massachusetts, and so the
impact of the discriminatory conduct was felt in
Massachusetts, not New York. As such, Defendant
contends that the Court was deprived of subject matter
jurisdiction at the time the jury rendered its verdict.
Defendant’s argument is flawed for a number of
reasons. First, as Plaintiff correctly points out, Defendant
invoked the Court’s diversity jurisdiction at the time it
removed the case from state to federal court. [ECF No.
1]. The only requirements for diversity jurisdiction are:
(1) diversity of citizenship; and (2) that the amount in
controversy exceeds $75,000. 28 U.S.C. § 1332(a); see also
id. at § 1441 (same requirements for removal). Defendant
has never claimed that either of these two prerequisites
are not present here. See [ECF No. 1 at 2] (notice of
removal filed by Defendant, which asserts that “[t]here is
complete diversity between the parties,” because Plaintiff
is a citizen of Massachusetts and Defendant is a New York
2000). Those cases did not apply the framework set forth in Reeves,
and they concern federal law as interpreted by the First Circuit;
therefore, they have limited persuasive value here.

61a
corporation, and claims that “[t]he amount in controversy
exceeds $75,000”). Nothing about the jury’s verdict
changes the fact that the parties are diverse and that the
amount in controversy is more than $75,000. Therefore,
the Court continues to have subject matter jurisdiction
over the dispute.
While Defendant provides quotes from several cases
asserting that the court lacks subject matter jurisdiction
over a NYCHRL claim where the discriminatory impact
of the challenged action is felt outside New York City,
Defendant fails to note that those cases concern the
jurisdiction of New York state courts. See Hoffman, 15
N.Y.3d at 289 (describing Appellate Division decision as
addressing whether “New York has subject matter
jurisdiction over the claims”); see also id. at 292 (Jones, J.,
dissenting) (“At issue is whether New York courts have
subject matter jurisdiction over a nonresident plaintiff’s
claims against a New York employer. . . .”); Benham v.
eCommission Solutions, LLC, 989 N.Y.S.2d 20 (App. Div.
2014) (discussing “[w]hether New York courts have
subject matter jurisdiction over a nonresident plaintiff’s
claims” under city and state human rights laws). In
addition, Defendant cites to a federal district court case
which notes that New York courts view the issue as one of
subject matter jurisdiction and then proceeds to analyze
an argument under that framework, but the case does not
discuss whether the lack of state court jurisdiction would
deprive a federal court of diversity jurisdiction. See
Wexelberg v. Project Brokers LLC, No. 13 CIV. 7904
LAK MHD, 2014 WL 2624761, at *1, *10, *12 (S.D.N.Y.
Apr. 28, 2014).
Furthermore, even if the Court accepted the
contention that a jury verdict on the merits of the case
could bear on the issue of whether the Court has diversity
jurisdiction, Defendant is not correct that the verdict in

62a
this case proves that Plaintiff is not entitled to the
protection of the NYCHRL. The jury was not asked
specifically whether Plaintiff was given permission to
transfer to Massachusetts, and Defendant never
requested the inclusion of such a question on the verdict
form. An alternate, equally (if not more) plausible reading
of the verdict and the evidence is that Defendant allowed
Plaintiff to believe that he would be able to transfer to
Massachusetts, but never officially authorized or intended
to authorize the transfer, thus creating a pretext to fire
him after he moved.6 If the jury concluded that Plaintiff
was always employed in New York City, even if he
sometimes worked remotely for the New York City office,
he would be able to bring a claim pursuant to the
NYCHRL. See Hoffman, 15 N.Y.3d at 291 (describing the
NYCHRL as protecting “those who work in the city”);
Robles v. Cox & Co., 841 F. Supp. 2d 615, 624 (E.D.N.Y.
2012) (same, quoting Hoffman); see also Wexelberg, 2014
WL 2624761 at *11 (recognizing that working remotely for
a New York City office “may present quite a different
scenario” from one where an employee is stationed at an
out-of-state office). Ultimately, Defendant’s argument
demonstrates the folly in attempting to discern a factual
finding from a verdict where the jury was not asked to
make a specific determination as to that issue.
Were the Court required to make factual findings concerning its
diversity jurisdiction, the Court would conclude that Defendant never
transferred Plaintiff to Massachusetts and he was therefore
continuously employed in New York City, despite the fact that he
worked remotely from Massachusetts in the days preceding his
termination.
Importantly, Defendant issued an ultimatum to
Plaintiff—that he would have to be physically present in the New York
City office five days per week to keep his job—which demonstrated
that Defendant viewed the job as being located in New York City at
the time Plaintiff was terminated.
6

63a
Accordingly, the verdict does not demonstrate that
Plaintiff is not protected by the NYCHRL.
Finally, Defendant claims in a footnote that Plaintiff
waived his ability to pursue a NYCHRL claim because his
original complaint, which brought claims based on
Massachusetts state law, did not include a cause of action
under a Massachusetts city statute (despite the fact that
no such statute exists in Winchester, where he resides).
While the Court is skeptical of the merits of this argument,
Defendant has never raised this point before, and does not
explain what principle would allow it to do so for the first
time in a post-trial motion. Simply appending an
otherwise-waived argument to a jurisdictional argument
is not enough. In any case, had Defendant raised this issue
earlier, the Court would have entertained a motion to
amend the complaint. See Fed. R. Civ. P. 15 (court should
“freely give leave” to amend complaint “when justice so
requires,” and allowing amendments even during and
after trial); 6 Charles Alan Wright, Arthur R. Miller &
Mary Kay Kane, Federal Practice and Procedure § 1488
(3d ed.) (“Quite appropriately the courts have not imposed
any arbitrary timing restrictions on requests for leave to
amend and permission has been granted under Rule 15(a)
at various stages of the litigation.”). Allowing Plaintiff to
amend the complaint would have been appropriate once
the Court determined, at Defendant’s behest, that New
York law applied, and such an amendment would not have
prejudiced Defendant.7
Defendant separately argues that the inclusion of the “substantial
factor” causation standard in the jury instructions and the special
verdict form was error. This argument is based on the premise that
Plaintiff should only have been allowed to bring a claim under the New
York State Human Rights Law (“NYSHRL”), not the New York City
Human Rights Law. Since there is no basis to conclude that Plaintiff
should not have been allowed to bring his NYCHRL claim, however,
7

64a
C. Standard of Proof for Punitive Damages
Under the NYCHRL
Defendant asserts that the jury should have been
instructed that Plaintiff had to prove his entitlement to
punitive damages by “clear and convincing” evidence.
Instead, the jury was instructed that it was permitted, but
not required, to award punitive damages “if you find that
the acts of the Defendant were wanton and reckless or
malicious.” [Tr. Day 4 at 585:16–18]. The Court went on
to explain that “[a]n act is malicious when it is done
deliberately with knowledge of the Plaintiff’s rights, and
with the intent to interfere with those rights,” and that
“[a]n act is wanton and reckless when it demonstrates
conscious indifference and utter disregard of its effect
upon the health, safety and rights of others.” Id. at
585:22–586:2. The jury was further instructed that it could
not award punitive damages “[i]f you find that Defendant’s
acts were not wanton and reckless or malicious.” Id. at
586:3–5.
The NYCHRL explicitly authorizes an award of
punitive damages, but does not specify the standard to be
used for determining liability for punitive damages. See
N.Y.C. Admin. Code § 8-502; see also Chauca v. Abraham,
841 F.3d 86, 90 (2d Cir. 2016) (holding that appropriate
standard for awarding punitive damages under NYCHRL
was unclear, thus warranting certification of question to
New York Court of Appeals). After the trial in this case
concluded and briefing on the post-trial motions was
completed, however, on November 1, 2017, the New York
Court of Appeals issued a definitive opinion on this
question. The court announced that “the standard for
determining punitive damages under the NYCHRL is
for the reasons discussed in this section, the argument based on the
NYSHRL also fails.

65a
whether the wrongdoer has engaged in discrimination
with willful or wanton negligence, or recklessness, or a
‘conscious disregard of the rights of others or conduct so
reckless as to amount to such disregard.’” Chauca v.
Abraham, 30 N.Y.3d 325, 334 (2017) (quoting Home Ins.
Co. v. Am. Home Prod. Corp., 75 N.Y.2d 196, 203–204
(1990)).8 The instructions given to the jury in this case
track the Chauca standard closely; if anything, they
impose a higher burden of proof than that endorsed in
Chauca. Although Chauca was not the law at the time of
trial, it simply clarified an area of law that previously
lacked a definitive explanation from the state’s highest
court, rather than reversing a prior decision or
announcing a new standard. See Chauca, 841 F.3d at 93
(“New York state court decisions do not provide definitive
guidance on this question.”). Therefore, Chauca confirms
that the punitive damages instructions in this case were
not erroneous.
Further, even based on the cases available at the time
of trial, there is no indication that the instructions were
incorrect. Throughout trial, and again in its post-verdict
motions, Defendant cited only negligence cases9 in support
of applying the “clear and convincing” standard and never
offered any explanation as to why the standard for
assessing punitive damages for negligence claims must
also apply in the context of a NYCHRL claim. When faced
with this issue, then-District Judge Sotomayor explained
In its brief in support of its post-trial motions, Defendant noted that
the issue of the standard of proof for punitive damages for NYCHRL
claims was pending before the New York Court of Appeals in Chauca.
[ECF No. 76 at 18 n.4].
9
Defendant cites Randi A.J. v. Long Island Surgi-Ctr., 842 N.Y.S.2d
558 (App. Div. 2007) (breach of confidentiality, privacy, and fiduciary
duty), and Munoz v. Puretz, 753 N.Y.S.2d 463 (App. Div. 2003)
(personal injury).
8

66a
that “under New York law, punitive damages are not a
separate cause of action;” rather, “[t]hey are inextricably
linked to the underlying cause of action.” Greenbaum v.
Svenska Handelsbanken, N.Y., 979 F. Supp. 973, 982
(S.D.N.Y. 1997). Therefore, “it is difficult to justify
subjecting only one form of damages to a different
evidentiary standard than all of the other elements of the
claim at issue—at least without clear direction from either
a statute or controlling judicial authority.” Id. She
determined that, “[g]iven that there is no such clear
direction [concerning city and state human rights laws], it
is more reasonable to apply the same burden of proof with
respect to one aspect of a claim as is applied to other
aspects of the claim,” and then accordingly concluded that
a punitive damages award made under the preponderance
standard applicable to federal claims should also apply to
a NYCHRL claim. Id. at 982–83.
Defendant was unable to cite a single case that
employed the “clear and convincing” standard for punitive
damages on a NYCHRL claim. In contrast, a multitude of
cases have applied the “willful or wanton negligence, or
recklessness” standard. See, e.g., Johnson v. Strive E.
Harlem Emp’t Grp., 990 F. Supp. 2d 435, 449–50 (S.D.N.Y.
2014) (applying federal standard to NYCHRL claim, and
explaining that the “punitive damages award thus turns on
whether the evidence supports an inference of ‘intentional
discrimination with malice or with reckless indifference to
the federally protected rights of an aggrieved individual.’”
(quoting MacMillan v. Millennium Broadway Hotel, 873 F.
Supp. 2d 546, 563 (S.D.N.Y. 2012))); Farias v. Instructional
Sys., Inc., 259 F.3d 91, 101 (2d Cir. 2001) (holding that the
federal standard applies to claims for punitive damages
under NYCHRL); Roberts v. United Parcel Serv., Inc.,
115 F. Supp. 3d 344, 373 (E.D.N.Y. 2015) (same);
MacMillan, 873 F. Supp. 2d at 563 (same).

67a
Defendant responds to this line of cases by asserting
that they describe “only what a plaintiff must prove to
obtain punitive damages, not the level to which the claim
must be proven.” [ECF No. 76 at 18 n.5]. Though
Defendant does not elaborate on this point, apparently the
argument is that a plaintiff is required to prove, by clear
and convincing evidence, that the defendant acted with
willful or wanton negligence or recklessness. Again,
Defendant does not cite any cases that directly support
this proposition. Furthermore, the cases that analyze the
NYCHRL punitive damages standard in depth do not
include even a single mention of either the
“preponderance” or “clear and convincing” standards.
See, e.g., Chauca, 30 N.Y.3d at 330–34; Chauca, 841 F.3d
at 89–93; Farias, 259 F.3d at 101–102.
In New York, “the general standard of proof in civil
litigation is a preponderance of the evidence,” with some
exceptions. 8 Carmody-Wait New York Practice § 56:16
(2d ed. 2017); accord 5 N.Y. Practice Series §§ 3:9–10.
Absent a recognized exception, courts should be hesitant
to apply a higher burden of proof. Greenbaum, 979 F.
Supp. at 982. Here, in particular, the reasoning behind
Chauca indicates that the clear and convincing standard
should not apply to NYCHRL punitive damages claims.
In Chauca, the court began with the Title VII standard for
punitive damages, as endorsed in Farias, but explained
that, in light of the Restoration Act and subsequent
guidance issued by the City Council, a lower standard of
proof should apply. Chauca, 30 N.Y.3d at 332–34. Multiple
appellate courts have determined that, in Title VII cases,
a plaintiff must only prove entitlement to punitive
damages by a preponderance of the evidence. See, e.g.,
White v. Burlington N. & Santa Fe Ry. Co., 364 F.3d 789,
805–806 (6th Cir. 2004), aff’d sub nom. Burlington N. &
Santa Fe Ry. Co. v. White, 548 U.S. 53 (2006); Karnes v.

68a
SCI Colo. Funeral Servs., Inc., 162 F.3d 1077, 1080–82
(10th Cir. 1998); Notter v. N. Hand Prot., No. 95-1087,
1996 WL 342008, at *10 (4th Cir. Jun. 21, 1996). Since the
Chauca court concluded that the standard for recovering
punitive damages under the NYCHRL should be less
demanding than the federal standard, requiring punitive
damages to be proven by clear and convincing evidence
would directly contradict Chauca’s reasoning. Consistent
with this approach, a New York federal district court
determined that a plaintiff bringing federal and NYCHRL
claims was required to “prove by a preponderance of the
evidence that the employer acted with malice or reckless
indifference, or engaged in egregious and outrageous
conduct.” Caravantes v. 53rd St. Partners, LLC, No. 09
CIV. 7821 RPP, 2012 WL 3631276, at *25 (S.D.N.Y. Aug.
23, 2012) (emphasis added). Therefore, given the lack of
support for Defendant’s position, the authority indicating
that the clear and convincing standard should not apply,
and the reluctance of New York courts to impose a higher
standard of proof absent clear direction to do so, the Court
concludes that Defendant was not entitled to an
instruction that Plaintiff was required to prove his claim
for punitive damages by clear and convincing evidence.10
CONCLUSION
For the reasons discussed supra, Defendant is not
entitled to judgment as a matter of law because the
evidence was sufficient to support the jury’s verdict.
Likewise, Defendant is not entitled to a new trial on the
basis that the verdict is against the “demonstrable weight
of the credible evidence,” Foisy, 356 F.3d at 146, because
the jury’s verdict is sufficiently supported by the credible
For the same reasons, Defendant is not correct that it was entitled
to a question on the special verdict form reflecting the clear and
convincing evidence standard.
10

69a
evidence presented at trial. Furthermore, the additional
grounds that Defendant raised in arguing for a new trial—
the existence of subject matter jurisdiction, the standard
of proof for punitive damages, choice of law issues, and
arguments based on the New York state human rights
law—are also unavailing.
Accordingly, Defendant’s motion for judgment as a
matter of law [ECF No. 74] and motion for a new trial
[ECF No. 75] are DENIED.
SO ORDERED.
March 7, 2018

/s/ Allison D. Burroughs
ALLISON D. BURROUGHS
U.S. DISTRICT JUDGE

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

No. 18-1302

(Filed 04/08/19)

Yury Rinsky
Plaintiff - Appellee,
v.
Cushman & Wakefield, Inc.
Defendant - Appellant.

Appeal from U.S. District Court for the District of
Massachusetts
(16-cv-10403-ADB)

Before
Howard, Chief Judge,
Torruella, Selya, Lynch, Thompson,

(70a)

71a
Kayatta, and Barron, Circuit Judges,
Katzmann, U.S. District Judge.*

ORDER OF COURT
The petition for rehearing having been denied by the
panel of judges who decided the case, and the petition for
rehearing en banc having been submitted to the active
judges of this court and a majority of the judges not having
voted that the case be heard en banc, it is ordered that the
petition for rehearing and the petition for rehearing en
banc be denied.
By the Court:
Maria R. Hamilton, Clerk
cc:
Benjamin M. McGovern, Edward F. Whitesell Jr., Ralph
T. Lepore, Robert R. Berluti, Sawnie A. McEntire, Paula
Danielle Taylor, John William Dennehy, Mark D. Szal

Of the United States Court of International Trade, sitting by
designation.
*

APPENDIX E
STATUTORY PROVISIONS INVOLVED
1. Employment. It shall be an unlawful
discriminatory practice:
(a) For an employer * * *, because of the
actual or perceived age, race, creed, color,
national origin, gender, disability * * * of
any person:
(1) To represent that any employment or
position is not available when in fact it is
available;
(2) To refuse to hire or employ or to bar or
to discharge from employment such person;
or
(3) To discriminate against such person in
compensation or in terms, conditions or
privileges of employment.
New York City Human Rights Law, N.Y.C. Admin. Code
§ 8-107(1)(a).
Except as otherwise provided by law,
any person claiming to be a person
aggrieved by an unlawful discriminatory
practice * * * or by an act of discriminatory
harassment or violence * * * shall have a
cause of action in any court of competent
jurisdiction for damages, including punitive
damages * * * .
New York City Human Rights Law, N.Y.C. Admin. Code
§ 8-502(a).
(72a)

